                          U.S. SMALL BUSINESS ADMINISTRATION
                              OFFICE OF INSPECTOR GENERAL
                                 WASHINGTON, D.C. 20416


                                                                         AUDIT REPORT
                                                                   Issue Date: November 15,
                                                                   2004
                                                                   umber: 5-05



To:              Hector V. Barreto,
                 Administrator

                 Tom Dumaresq,
                 Chief Financial Officer

                 /S/original signed
From:            Robert G. Seabrooks,
                 Assistant Inspector General for Auditing

Subject:         Audit of SBA’s FY 2004 Financial Statements
.
        Pursuant to the Chief Financial Officers Act of 1990, attached are the Independent
Auditor’s Report and accompanying reports on internal control and compliance with laws and
regulations issued by Cotton & Company LLP. The auditor issued an unqualified opinion on the
Fiscal Year (FY) 2004 combined statement of budgetary resources and the FY 2003 consolidated balance
sheet (as restated); issued a qualified opinion on the FY 2004 consolidated balance sheet and statements
of net costs, changes in net position, and financing. As agreed upon between the Office of the Chief
Financial Officer and the Office of the Inspector General, the auditor did not apply all necessary auditing
procedures in accordance with generally accepted auditing procedures to express an opinion on SBA’s
FY 2003 consolidated statements of net cost, changes in net position, and financing and the combined
statement of budgetary resources, which previously received a disclaimed opinion from the auditors in FY
2003. A summary of FY 2004 audit results is outlined below.

                                Summary of FY 2004 Audit Results

      Statement:                    FY 2004                              FY 2003
      Balance Sheet                 Qualified                            Unqualified
      Statement of Net Cost         Qualified                            Disclaimed
      Statement of Changes in Net   Qualified                            Disclaimed
      Position
      Statement of Budgetary        Unqualified                          Disclaimed
      Resources
      Statement of Financing        Qualified                            Disclaimed
        The auditor’s qualification stemmed from their inability to satisfy themselves as to the
reasonableness of (1) SBA’s FY 2004 subsidy re-estimates pertaining to its Section 7(a), 504,
Small Business Investment Company (SBIC) Participating Securities, and SBIC Debenture
programs, (2) the value of Credit Program Receivables and Related Foreclosed Property, and (3)
the value of Liabilities for Loan Guarantees for these four programs.

        The Independent Auditor’s Report on Internal Control discusses three matters considered
reportable conditions: (1) Financial Management and Reporting Controls; (2) Credit Reform
Controls; and (3) Agency-Wide Information System Controls. The auditors further considered
combined matters described in the first two areas to be material weaknesses under the standards
established by the American Institute of Certified Public Accountants and the Office of
Management and Budget Bulletin No. 01-02. The auditor found other management and internal
control issues that will be communicated in a separate management letter.

        The Independent Auditor’s Report on Compliance with Laws and Regulations disclosed
that SBA was not in substantial compliance with the Federal Financial Management
Improvement Act (FFMIA) because of the following: (1) SBA is not in substantial compliance
with federal financial system requirements; (2) SBA financial system is not in substantial
compliance with federal accounting standards; and (3) SBA is not in substantial compliance with
the United States Standard General Ledger at the transaction level. As discussed in more detail
in the Independent Auditor’s Report on Internal Control, the auditor also noted instances of
noncompliance with the Anti-Deficiency Act and the Federal Credit Reform Act.

        SBA management generally agreed with the auditors’ findings and recommendations and
noted that meeting the accelerated reporting date of November 15th was a major accomplishment
for SBA, the Inspector General and the Independent Public Accountant this year and could not
have done it without the coordinated effort made by all parties involved. SBA is proud of the
work it did in establishing an aggressive but realistic set of milestones and working
cooperatively with Cotton & Company to ensure they received timely and accurate materials.
SBA management is also pleased that the SBA has received an improved audit opinion from the
independent auditor compared to the previous three years and believe it accurately reflects a
substantial improvement in the quality of the Agency’s financial statements. SBA management
saw the audit results as a particularly strong accomplishment given the shortened reporting cycle.


       The findings in this report are based on the auditor’s conclusions and the report
recommendations are subject to review, management decision and action by your office, in
accordance with existing Agency procedures for follow-up and resolution. Please provide us
your proposed management decisions within 30 days on the attached SBA Form 1824,
Recommendation Action Sheet.

       Should you or your staff have any questions, please contact Jeff Brindle, Director,
Information Technology and Financial Management Group at (202) 205-[FOIA Ex. 2].

Attachments
                                 INDEPENDENT AUDITOR’S REPORT



Inspector General
U.S. Small Business Administration


We audited the accompanying consolidated balance sheets of the U.S. Small Business Administration
(SBA) as of September 30, 2004, and 2003 (restated); related consolidated statements of net cost, changes
in net position, and financing; and combined statements of budgetary resources for the fiscal years then
ended. These financial statements are the responsibility of SBA management. Our responsibility is to
express an opinion on these financial statements based on our audits.

Except as explained in the following four paragraphs, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America. Those standards require that we
plan and perform our audits to obtain reasonable assurance about whether the financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting amounts and
disclosures in the financial statements. An audit also includes assessing the accounting principles used
and significant estimates made by management, as well as evaluating overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

The scope of our examination for the Fiscal Year (FY) 2003 financial statements was limited, because
SBA was late in completing development and testing of certain credit program subsidy models,
completing its credit program subsidy re-estimates, and preparing its financial statements. As a result,
adequate time did not remain to obtain sufficient, competent evidential matter, apply auditing procedures
necessary to conduct an audit in accordance with generally accepted auditing standards and generally
accepted government auditing standards, and form a reasonable basis for an opinion on the financial
statements by the January 30, 2004, reporting deadline specified by the Office of Management and
Budget (OMB) Memorandum titled Fiscal Year (FY) 2003 Financial and Performance Reporting (August
13, 2003.)

SBA restated its FY 2003 financial statements during FY 2004. The scope of our examination of the
September 30, 2003, restated balance sheet included applying auditing procedures sufficient to enable us
to express an opinion thereon. The scope of our examination did not include additional auditing
procedures sufficient to enable us to express an opinion on the restated consolidated statements of net
cost, changes in net position, and financing and the combined statement of budgetary resources for the
year ended September 30, 2003.

Because we did not apply all necessary auditing procedures to conduct an audit in accordance with
generally accepted auditing standards or dispose of all reservations identified during our work conducted
as part of the FY 2003 audit, we are not able to express, and we do not express, an opinion on SBA’s FY
2003 restated consolidated statements of net cost, changes in net position, and financing and combined
statement of budgetary resources.
We were not able to satisfy ourselves as to the reasonableness of SBA’s FY 2004 subsidy re-estimates
pertaining to its Section 7(a), 504, Small Business Investment Company (SBIC) Participating Securities,
and SBIC Debenture programs or to the value of SBA’s Credit Program Receivables and Related
Foreclosed Property, Net and Liabilities for Loan Guarantees for these four programs. SBA forecasted its
cash flow activity, including purchases for defaulted loans, recoveries on defaults, interest transactions on
estimated cash balances, and other collection and disbursement activities for the second half of FY 2004.
SBA consistently overestimated purchase activity, which in turn affected projections of other cash flow
components. We were not able to determine the impact of this material over-estimate of purchase
activities on the re-estimates of subsidy costs. In addition, the material over-estimate of purchase
activities directly affects SBA’s valuation of its Credit Program Receivables and Related Foreclosed
Property and Liabilities for Loan Guarantees, because SBA makes adjustments between these two
financial statement line items based on estimates of activity for the second half of FY 2004.

In our opinion, the consolidated balance sheet as of September 30, 2003, and the combined statement of
budgetary resources for the period ended September 30, 2004, present fairly, in all material respects, the
financial position of SBA as of September 30, 2003, and its budgetary resources for the period ended
September 30, 2004. Except for the effects of such adjustments, if any, that might have been determined
to be necessary had we been able to examine additional evidence related to the re-estimates and financial
statement line items explained in the previous paragraph, the consolidated balance sheet as of September
30, 2004, and statements of net cost, changes in net position, and financing for the period ended
September 30, 2004, present fairly in all material respects, the financial position of SBA as of September
30, 2004, and the results of operations, changes in net position, and reconciliation of net costs to
budgetary obligations for the period ended September 30, 2004.

SBA presented its net costs of operations in FY 2004, consistent with its strategic goals. As discussed in
Note 1.S and Note 15, to the financial statements, SBA restructured its strategic goals during FY 2004
and presented its FY 2003 net costs of operations in summary without costs matching current-year goals.

During the conduct of our FY 2003 audit (OIG Report No. 4-10, Audit of SBA’s Fiscal Year 2003
Financial Statements, January 28, 2004) Cotton & Company identified certain matters causing us
reservations regarding whether particular FY 2003 financial statement amounts and disclosures were
presented fairly in accordance with prevailing federal accounting standards. We were not able to apply all
auditing procedures that may have allowed us to resolve our reservations before the due date for audited
financial statements. As noted above, during the conduct of our FY 2004 audit, we did not apply audit
procedures to enable us to express an opinion on the restated FY 2003 consolidated statements of net cost,
changes in net position, and financing and the combined statement of budgetary resources. Accordingly,
we were not able to resolve the reservation related to the gain or loss on asset sales, and we identified one
new matter causing us reservations regarding the consolidated statement of net cost for the period ended
September 30, 2003.

Restated Gain or Loss on Asset Sales

SBA conducted an analysis to calculate revised gain/loss on loans sold during FYs 1999 through 2003.
SBA computed a revised net book value using various assumptions depending on the program and
available data. The revised net book value was subtracted from the loan sale proceeds to calculate a
revised gain/loss. We have concerns with the data used in this analysis for the Section 7(a) and 504
guaranteed business loan programs and communicated them to management. SBA did not respond to our
concerns in time for us to complete our review of the revised gain/loss calculation. SBA disclosed a $163
million and $126 million changes between previously reported losses and revised gains in its Section 7(a)
and 504 credit programs, respectively. We did not apply additional auditing procedures during the FY
2004 to resolve this reservation.
Consolidated Statement of Net Cost

As described in Notes 1.S and 15, to the financial statements, SBA reported its net costs of operations
consistent with the agency’s strategic goals. SBA restructured its strategic goals during FY 2004 and
added a new goal, the costs of which are allocable to all other strategic goals. As the result of this
restructuring, SBA presented its FY 2003 net costs of operations in total, rather than by strategic goal. As
a result, the consolidated statements of net costs for FYs 2003 and 2004 are not comparable. OMB
Bulletin 01-09, Form and Content of Agency Financial Statements, states that the financial statements and
related footnotes should present balances and amounts for current and prior years for comparative
purposes. In addition, its states that the statement of net cost should present responsibility segments that
align directly with the major goals and outputs described in an entity’s strategic and performance plan,
required by the Government Performance and Results Act (GPRA).



Our audits were conducted for the purpose of forming an opinion on the basic financial statements taken
as a whole. Information presented in SBA’s Performance and Accountability Report (PAR), including
management’s discussion and analysis, required supplementary stewardship information, required
supplementary information, and other accompanying information are not required parts of the basic
financial statements, but are additional information required by the Federal Accounting Standards
Advisory Board and OMB Bulletin No. 01-09. We applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of the
supplementary information. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it. Our limited procedures raised doubts, however, that we were
unable to resolve regarding whether material modification should be made to the information for it to
conform to OMB Bulletin No. 01-09.

In accordance with Government Auditing Standards, we have also issued reports dated November 15,
2004, on our consideration of SBA’s internal control and on its compliance with laws and regulations.
Those reports, which disclose material weaknesses and reportable conditions in internal control and non-
compliance with certain laws and regulations and the Federal Financial Management Improvement Act,
are integral parts of a report prepared in accordance with Government Auditing Standards and should be
read in conjunction with this report in considering the results of our work.


COTTON & COMPANY LLP

[FOIA Ex. 6]

Charles Hayward, CPA


November 15, 2004
Alexandria, Virginia
                INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL



Inspector General
U.S. Small Business Administration


We audited the consolidated balance sheets of the U.S. Small Business Administration (SBA) as
of September 30, 2004, and 2003 (restated); related consolidated statements of net cost, changes
in net position, and financing; and combined statements of budgetary resources for the fiscal
years then ended and have issued our report thereon, dated November 15, 2004. In that report, we
issued an unqualified opinion on the Fiscal Year (FY) 2004 combined statement of budgetary
resources and the FY 2003 consolidated balance sheet (as restated); issued a qualified opinion on
the FY 2004 consolidated balance sheet and statements of net costs, changes in net position, and
financing; and disclaimed an opinion on the FY 2003 consolidated statements of net cost, changes
in net position, and financing and the combined statement of budgetary resources.

Except as described in our November 15, 2004, Independent Auditor’s Report referred to above,
we conducted our audits in accordance with auditing standards generally accepted in the United
States; standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and Budget
(OMB) Bulletin 01-02, Audit Requirements for Federal Financial Statement.

In planning and performing our work, we considered SBA’s internal controls over financial
reporting by obtaining an understanding of SBA’s internal controls, determining if internal
controls had been placed in operation, assessing control risk, and performing tests of controls. We
limited internal control testing to those controls necessary to achieve objectives described in
OMB Bulletin No. 01-02. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982 (FMFIA), such as those
controls relevant to ensuring efficient operations. The objective of our work was not to provide
assurance on internal controls. Consequently, we do not provide an opinion on internal controls.

Our consideration of internal controls over financial reporting would not necessarily disclose all
matters in internal controls over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants (AICPA) and OMB
Bulletin No. 01-02, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of internal controls that, in our judgment, could
adversely affect SBA’s ability to record, process, summarize, and report financial data consistent
with management assertions in the financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more
internal control components does not reduce to a relatively low level the risk that misstatements
in amounts that would be material in relation to the financial statements being audited may occur
and not be detected within a timely period by employees in the normal course of performing their
assigned functions. Because of inherent limitations in internal control, misstatements, losses, or
noncompliance may nevertheless occur and not be detected.

We noted matters involving internal controls and its operation in the following three areas that we
consider to be reportable conditions:

        1.      Financial Management and Reporting Controls
        2.      Credit Reform Controls
        3.      Agency-Wide Information System Controls

We consider combined matters described in the first two areas to be material weaknesses under
standards established by AICPA and OMB Bulletin No. 01-02, as discussed below.
             1. FINANCIAL MANAGEMENT AND REPORTING CONTROLS


SBA’s internal control and quality assurance procedures over financial management and
reporting continue to need improvement in the following areas:

        •       Financial Statement Preparation and Quality Assurance
        •       Financial Accounting Transactions and Review of Account Balances
        •       Funds Control Management
        •       Anti-Deficiency Act Compliance
        •       Intra-Governmental Transactions

SBA made substantial improvements during FY 2004 and was able to provide its FY 2004
interim and final draft financial statements and footnotes, supporting trial balances, and key audit
evidence in accordance with agreed-upon milestone dates. SBA’s quality control procedures,
however, continue to need improvement to ensure that financial reports and audit evidence are
accurate, reliable, and provided in a timely manner. The FY 2004 audit plan contained key
milestone dates that were negotiated based on what SBA could realistically accomplish during its
first year operating under an accelerated audit schedule. Some of these key milestone dates
should ideally be accelerated further to ensure adequate time to complete the audit in accordance
with generally accepted auditing standards, resolve audit issues, and prepare the Performance and
Accountability Report. To accomplish this, SBA must continue to refine its resource management
controls and critical-path approach for completing reconciliations; calculating and reviewing
accruals, re-estimates, and other manual adjustments; closing the general ledger; preparing
complete and accurate financial statements and footnotes; and performing appropriate analytical
procedures and evaluation of account balances.

We discuss SBA’s control weaknesses and areas needing improvement on the following pages
under their respective captions.

FINANCIAL STATEMENT PREPARATION AND QUALITY ASSURANCE

SBA maintained insufficient and sometimes ineffective quality control over its interim and final
draft financial statements, related footnote disclosures, and other sections of the Performance and
Accountability Report, including the Management Discussion and Analysis (MD&A) and the
Performance Report sections. The reports contained numerous, pervasive, and obvious errors,
including inconsistencies among the principal financial statements, footnote disclosures, and
MD&A and Performance Report sections. This resulted in a significant number of auditor
comments on each version of the draft financial statement packages. For example:

        •       Footnotes contained many factual inaccuracies and grammatical errors.

        •       Footnote schedules did not sum properly, digits were omitted from amounts
                presented in the schedules, and footnote amounts did not tie to the applicable
                financial statement line item or other related footnotes.

        •       SBA omitted essential disclosures in its footnotes, such as discussion about its
                use of significant estimates in the financial statements, the agreed-upon
               accounting treatment for additional interest on subsidy re-estimates resulting
               from changes in discount rates for interest income and expense transactions with
               Treasury, and the time period for which actual data were used for developing the
               FY 2004 re-estimates and its methodology for annualizing such data.

       •       SBA mischaracterized a reduction in new borrowing authority as a repayment of
               borrowings. As a result, Footnote No. 11, Debt, showed borrowings in excess of
               borrowing authority. This was not identified during SBA’s quality review
               process.

       •       Footnote No. 6, Credit Program Receivables and Related Foreclosed Property
               and Liability for Loan Guarantees, showed an increase in guaranteed loans
               outstanding in FY 2004 that exceeded new guaranteed loans disbursed resulting
               from a $10 billion misstatement of FY 2003 guaranteed loans outstanding. SBA
               did not identify this illogical condition during its internal control review process.

       •       Footnote No. 4, Master Reserve Fund, contained an incorrect amount carried
               forward from financial statements published for FY 2003 that was related to the
               FY 2002 restatement of subsidy re-estimates.

       •       SBA’s August 2004 statement of budgetary resources did not tie to the trial
               balance, because one line item contained a “hard coded” number from June that
               was not deleted when preparing the August statement.

       •       Expected relationships among the financial statements and between the financial
               statements and footnotes were incorrect.

       •       The draft MD&A and Performance Measures sections were missing information
               in some key areas. In addition, some of the data and text presented either were
               not supported by the underlying documentation or were inconsistent with our
               audit results. We noted that management did not ensure that the final MD&A
               was materially consistent with the final principal financial statements and audit
               results. For instance, management did not update the Analysis of Financial
               Results section of the MD&A so that it agreed with the final financial statements.

OMB Circular A-127, Financial Management Systems, states:

               The agency financial management system shall be able to provide
               financial information in a timely and useful fashion to…comply with
               internal and external reporting requirements, including, as necessary,
               the requirements for financial statements prepared in accordance with
               the form and content prescribed by OMB and reporting requirements
               prescribed by Treasury.

Also, Statement of Federal Financial Accounting Concepts No. 1, Objectives of Federal
Financial Reporting, states:

               Financial reporting is the means of communicating with those who use
               financial information. For this communication to be effective,
               information in financial reports must have these basic characteristics:
                understandability, reliability, relevance, timeliness, consistency, and
                comparability.

SBA corrected the majority of the errors and inconsistencies identified with the draft financial
statements submitted throughout the audit period.

In addition, SBA did not prepare its consolidated statement of financing in accordance with the
most recent guidance available to facilitate the implementation of Statement of Federal Financial
Accounting Standards (SFFAS) No. 7, Accounting for Revenue and Other Financing Sources.
Specifically, SBA included its interest transactions with the public and Treasury in the section
titled Resources Used to Finance Items Not Part of the Net Cost of Operations, although interest
transactions were reported on the net cost of operations. In addition, SBA did not include its
amortization of the allowance for subsidy in the section titled Components Not Requiring or
Generating Resources.

According to SFFAS No. 7, the purpose of the statement of financing is to explain the
relationship between a reporting entity’s budgetary resources and its net cost of operations.
Through reconciliation, the statement provides information necessary for understanding how
budgetary resources finance the net cost of operations and affect assets and liabilities of the
reporting entity. The SFFAS No. 7 Implementation Guide (April 2002) explains concepts and
standards to aid in understanding and implementing SFFAS No. 7.

Recommendation:

1.A     We recommend that the CFO continue to develop new quality assurance review
        procedures and enhance existing procedures to ensure that all financial transactions are
        properly reflected in the financial statements, and that footnote disclosures are accurate
        and logical and contain comprehensive information essential to the fair presentation of
        SBA’s financial condition. We recommend the following:

        •       Performing additional analytical procedures monthly or quarterly.
        •       Developing and completing additional checklists.
        •       Performing studies of best practices.
        •       Having an independent review conducted by individuals not associated with
                SBA’s daily financial management and reporting responsibilities, such as an
                outside peer reviewer.


FINANCIAL ACCOUNTING TRANSACTIONS AND REVIEW OF ACCOUNT
BALANCES

SBA’s quality assurance process did not detect all instances in which its accounting practices
were not United States Standard General Ledger (SGL) compliant or for which accounting
transactions were not recorded, processed, summarized, and reported in compliance with OMB
Bulletin No. 01-09, Form and Content of Agency Financial Statements, and federal accounting
standards. We noted the following matters.

Improper Accounting Treatment for Appropriation Transfer

SBA incorrectly treated an appropriation transfer from the Department of Homeland Security for
Disaster Loan Program administrative expenses, as reimbursable activity rather than appropriated
funds. This transfer was received in September 2004 to provide emergency funding for disasters
occurring in Florida. SBA treated the appropriation transfer as reimbursable activity to
accommodate immediate obligation and disbursement needs associated with emergency funding.

Within its accounting system, SBA had already established separate account symbols for its
salary and expense fund to distinguish transactions incurred under reimbursable activities from
direct activities. SBA’s Disaster Loan Program administrative appropriations are typically
received in the loan program funds and advanced to the salary and expense fund reimbursable
account where the expenditures are obligated and paid. The apportionment to advance money
from the program funds and receive the spending authority from offsetting collections in the
salary and expense fund is included on the Standard Form (SF) 132, Apportionment and
Reapportionment Schedule, and approved by OMB. Because the Disaster Loan Program account
classification information was already set up in the reimbursable account, SBA also treated the
appropriation transfer received in its salary and expense fund as reimbursable activity, similar to
its other Disaster Loan Program administrative appropriations.

This treatment was not appropriate, because both the salary and expense direct and reimbursable
funds are apportioned as one fund. Therefore, the transfer received in the salary and expense fund
was not apportioned as spending authority from offsetting collections, and it was not apportioned
to be advanced to the salary and expense reimbursable account.

By adopting such treatment, SBA created the erroneous intra-fund transactions identified below:

                        Financial Statement Line
 Financial Statement              Item                General Ledger Account             Misstatement
                                                   480201, Unexpended Obligations
                                                                                     $22,579,915 Overstated
                       Obligations Incurred and    - Prepaid/Advanced
                       Outlays-Collections
Statement of                                       490201, Delivered Orders -
                                                                                     $7,420,085 Overstated
Budgetary Resources                                Obligations, Paid
and Statement of       Spending Authority from     422201, Unfilled Customer
                                                                                     $22,579,915 Overstated
Financing              Offsetting Collections-     Orders With Advance
                       Unfilled Customer Orders
                                                   425201, Reimbursements and
                       and Outlays-                                                  $7,420,085 Overstated
                                                   other Income Earned - Collected
                       Disbursements
                       Advances                    141001, Advances to Others        $22,579,915 Overstated
Balance Sheet
                       Other Liabilities           231001, Advances from Others      $22,579,915 Overstated
                      Intragovernmental Earned     520001, Revenue from Services
                                                                                     $7,420,085 Overstated
Statement of Net Cost Revenues                     Provided
                       Gross Costs with Public     610001, Operating Expenses        $7,420,085 Overstated


SBA made correcting entries after we brought this matter to its attention.

Statement of Federal Financial Accounting Standard No. 7 states that unexpended appropriations
should be adjusted for other changes in budgetary resources, such as rescissions and transfers.

Improper Assignment of Disaster Administrative Expense to Strategic Goals

SBA allocated indirect salary and expense costs to its strategic goals for purposes of reporting net
costs of operations consistent with its goals. It used a cost study to calculate percentages assigned
to each goal. It assigned 100 percent of Disaster Loan Program administrative expenses received
in the program fund to Goal C, Restore Home and Businesses Affected by Disaster. As noted
previously, in September 2004, SBA received an appropriation transfer in its salary and expense
fund from the Department of Homeland Security to cover Disaster Loan Program administrative
expenses. Because the transfer appropriation was received in the salary and expense fund, it was
allocated to each of SBA’s strategic goals rather than being assigned 100 percent to Goal C. This
resulted in understating costs assigned to Strategic Goal C by about $5.7 million and overstating
other strategic goals by the same amount.

SBA was aware of this condition but did not have a process in place to correct the misstatement
of net cost of operations at the strategic-goal level.

SFFAS No. 4, Managerial Cost Accounting Concepts and Standards for the Federal
Government, states that in principle, costs should be assigned to outputs by directly tracing costs,
assigning costs on a cause and effect basis or allocating costs on a reasonable and consistent
basis. Direct tracing applies to specific resources that are dedicated to particular outputs.

Subsidy Realignment Entry

SBA recorded an offline journal entry to properly align the present value of future cash flows
between the Liabilities for Loan Guarantees and Credit Program Receivables and Related
Foreclosed Property, Net, balance sheet line items. During FY 2004, SBA developed a revised
methodology for determining the amount of the alignment entry. The methodology identifies the
estimated present value of future cash flows for loans with a guarantee still in force from the
subsidy re-estimate models. The balance in General Ledger Account 2180, Liability for Loan
Guarantee, is then “aligned” with this estimate. We noted two exceptions with SBA’s alignment
entry.

SBA did not segregate the present value of future cash flows for its Small Business Investment
Company (SBIC) Participating Securities Program between those related to guarantees still in
force and those related to SBICs that have already defaulted. SBA aligned General Ledger
Account 2180 to the unsegregated present value of future cash flows from the subsidy re-estimate
model, causing it to be understated and General Ledger Account 1399 to be overstated. As a
result of our audit inquiries, SBA determined that an audit adjustment was necessary and posted
an adjusting entry to correct the following misstatements:

                              Fiscal Year 2004 Financial Statements
                            Financial Statement Line     General Ledger
       Financial Statement              Item                  Account          Misstatement
                           Credit Program Receivables
                                                      1399, Allowance for       $343,287,839
                           and Related Foreclosed
                                                      Subsidy                    Overstated
      Balance Sheet        Property, Net
                           Liability for Loan         2180, Loan Guarantee      $343,287,839
                           Guarantees                 Liability                 Understated
                              Fiscal Year 2003 Financial Statements
                           Credit Program Receivables
                                                      1399, Allowance for       $222,136,726
                           and Related Foreclosed
                                                      Subsidy                    Overstated
      Balance Sheet        Property, Net
                           Liability for Loan         2180, Loan Guarantee      $222,136,726
                           Guarantees                 Liability                 Understated
Second, SBA recorded the FY 2003 alignment entry and validated that the resulting General
Ledger Account 2180 balance agreed to the estimated present value of future cash flows for
guarantees in force per the subsidy re-estimate models. Subsequent to this, SBA posted another
transaction that affected the General Ledger Account 2180 balance. As a result, the account
balance no longer agreed to the target amount per the re-estimate models. SBA did not identify
this condition during its quality assurance review process of the September 30, 2004, draft
financials statements. Upon audit inquiry, SBA determined why the balance did not align and
made an audit adjustment to correct the following misstatements:

                                Fiscal Year 2003 Financial Statements
                              Financial Statement Line     General Ledger
       Financial Statement              Item                   Account              Misstatement
                             Credit Program Receivables
                                                        1399, Allowance for         $33,063,756
                             and Related Foreclosed
                                                        Subsidy                     Understated
      Balance Sheet          Property, Net
                             Liability for Loan          2180, Loan Guarantee        $33,063,756
                             Guarantees                  Liability                   Overstated

Secondary Market Guarantee Re-estimate Accounting Entry

SBA’s Secondary Market Guarantee re-estimate was improperly recorded in the general ledger,
resulting in misstatements in the following general ledger account balances:

                        Financial Statement Line
 Financial Statement              Item                General Ledger Account         Misstatement
                                                   2005U, Payable Subsidy to          $6,736,325
                       Accounts Payable
                                                   Financing Fund (Unfunded)          Overstated
                                                   1101U, Receivable Subsidy
                                                                                      $6,736,325
Balance Sheet          Accounts Receivable         from Program Fund
                                                                                      Overstated
                                                   (Unfunded)
                       Liabilities for Loan                                           $6,736,325
                                                   2180, Loan Guarantee Liability
                       Guarantees                                                     Overstated
                                                 5013U, Interest Expense on           $2,143,411
                                                 Subsidy Reestimate                   Overstated
                                                 5105U, Subsidy Expense               $4,592,914
                      Gross Costs with Public
                                                 (Unfunded)                           Overstated
Statement of Net Cost
                                                 5119U, Interest Expense              $2,143,411
                                                 (Unfunded)                           Overstated
                                                 4034, Interest Income Subsidy        $2,143,411
                      Earned revenue from Public
                                                 Reestimate                           Overstated

SBA’s quality assurance review procedures were inadequate and did not detect these errors either
before or after the re-estimate transactions were posted in the accounting system. SBA corrected
the errors after we brought them to its attention.

Net Position Balances

SBA did not have a process in place to routinely validate the propriety of its net position
balances. We identified several funds that had potentially invalid cumulative results of operations
and unexpended appropriations balances and asked SBA to review them to determine validity.
SBA determined that the balances were misstated. The misstatements were most likely
attributable to use of improperly recorded prior-year appropriations. SBA posted the following
correcting entries:



    Financial    Financial Statement   General Ledger
    Statement         Line Item          Account        Fund                 Misstatement
                                                     X4156             $273,500,000 Overstated
                                                     X0100DA           $5,355,698 Understated
                                    3100,            30100DA             $477,663 Understated
                 Unexpended
                                    Unexpended       X0200DA              $523,317 Overstated
                 Appropriations
                                    Appropriations 10100DA               $509,444 Understated
Balance Sheet                                        20100DA             $842,581 Understated
and Statement of                                     900100DA            $1,301,103 Overstated
Changes in Net                                       X4156            $273,500,000 Understated
Position                                             X0100DA            $5,355,698 Overstated
                                    3310, Cumulative 30100DA              $477,663 Overstated
                 Cumulative Results
                                    Results of       X0200DA             $523,317 Understated
                 of Operations
                                    Operations       10100DA              $509,444 Overstated
                                                     20100DA              $842,581 Overstated
                                                     900100DA           $1,301,103 Understated



Disaster Loan Program Interest Transactions with Treasury

SBA developed a component of its Disaster Loan Program interest on subsidy re-estimates to
correct for shortfalls in Disaster Program financing fund balances resulting from:

        •       Inconsistencies among various credit reform tools and schemes for calculating
                and applying cohort weighted average and single effective interest rates. In
                accordance with OMB guidance, SBA calculated interest transactions with
                Treasury using budget assumptions for the Disaster Loan Program 2002 cohort
                until it was 90-percent disbursed; SBA’s adjustment corrected for differences
                between those assumptions and actual discount rates that became known once the
                cohort was 90-percent disbursed.

        •       Misallocation of borrowings between Disaster Loan Program and World Trade
                Center/Pentagon (WTCP) Program and commingling Disaster Loan Program and
                WTCP Program net cash balances in its calculation of interest transactions with
                Treasury prior to FY 2004. This resulted in the improper use of program and
                cohort discount rates for calculating interest transactions with Treasury.

SBA overlooked the additional interest on subsidy re-estimates when posting its FY 2004 and
restated FY 2003 re-estimates for inclusion in its August 2004 draft financial statements. In
addition, when the entry was posted, it was posted as a FY 2004 transaction; the portion related to
SBA’s failure to separately calculate interest transactions for the WTCP Program should have
been recorded as a FY 2003 restatement, because the errors related to FY 2003 and prior
accounting periods. SBA did not separately calculate the effects of the two conditions noted
above. The correcting entry affected the following financial statement line items:
                          Financial Statement Line
 Financial Statement                Item                General Ledger Account        Misstatement
                                                     1101U, Receivable Subsidy from    $25,626,197
                        Accounts Receivable
                                                     Program Fund (Unfunded)          Understated
                        Credit Program Receivables
                                                                                       $3,565,585
                        and Related Foreclosed       1399, Allowance for Subsidy
                                                                                      Understated
 Balance Sheet          Property
                                                   2005U, Payable Subsidy to          $25,626,197
                        Accounts Payable
                                                   Financing Fund (Unfunded)          Understated
                                                   2012U, Payable to Special          $22,060,612
                        Other Liabilities
                                                   Receipt Fund (Unfunded)            Understated
                                                   4033, Interest Income (Non          $3,565,585
                                                   Federal)                           Overstated
                        Earned Revenue from Public
                                                   4034, Interest Income Subsidy      $25,626,197
 Statement of Net
                                                   Reestimate                         Understated
 Cost
                        Intragovenmental Gross       5034U, Interest Expense-         $22,060,612
                        Costs                        Subsidy Reestimate (Unfunded)    Understated
 Statement of Net   Gross Costs with Public and
                                                5013U, Interest Expense on            $25,626,197
 Cost and Statement Upward/Downward
                                                Subsidy Reestimate (Unfunded)         Understated
 of Financing       Reestimates

The Federal Credit Reform Act of 1990 requires that the rate of interest charged by the Secretary
of Treasury on lending to financing accounts or paid to financing accounts on uninvested funds
be the same as the discount rate used in estimating net present values.

Recommendation:

1.B.    We recommend that the CFO continue to develop new quality control procedures and
        tools and enhance existing procedures and tools to prevent and detect errors or
        misstatements in amounts recorded in SBA’s financial accounting systems or in the
        accounting treatment and presentation of economic events and to ensure that underlying
        transactions in the financial statements are accurate, complete, and presented in
        conformity with federal accounting standards and principles. We recommend that
        procedures be included for:

        •           Assigning sufficient human resources to perform financial management and
                    quality assurance functions.

        •           Providing appropriate training and ensuring knowledge transfer among
                    accountants and analysts responsible for recording, reviewing, and approving
                    accounting transactions.

        •           Developing appropriate skill sets to enable efficient, complete, and accurate
                    analysis of detailed and summarized financial data.

FUNDS CONTROL MANAGEMENT

SBA’s funds control management improved significantly since FY 2003, but continues to have
weaknesses, as discussed below.
Invalid Budgetary Proforma Entries

SBA used an application called Budget Proforma to record budgetary accounting entries in its
Financial Reporting Information System (FRIS) consolidated general ledger based upon
proprietary and memorandum transactions occurring in the Loan Accounting System (LAS),
because LAS does not include budgetary accounting transactions. We noted the following
misstatements on the combined statement of budgetary resources related to SBA’s budgetary
proformas:

        •       During FY 2004, SBA corrected invalid proforma posting logic for Transaction
                Codes 311 and 320. It did not, however, make retroactive adjustments to correct
                the effects from the invalid logic. As a result, Spending Authority from
                Offsetting Collections and Obligations Incurred were understated by $313,057.

        •       SBA posted a manual journal voucher to correct year-to-date effects from invalid
                budgetary posting logic for Transaction Code 462. This entry did not result in the
                correct budgetary balances. As a result, Spending Authority from Offsetting
                Collections and Obligations Incurred were understated by $14,546,294.

SBA did not reconcile its proprietary and related budgetary account balances to ensure that the
results of its budgetary proforma posting logic were correct. In addition, SBA’s quality assurance
process did not detect account balance errors. SBA corrected these misstatements after we
brought them to its attention.

Substantial compliance with the SGL at the transaction level, as mandated by the Federal
Financial Management Improvement Act (FFMIA), requires that SBA record financial events
consistent with applicable posting models/attributes reflected in the SGL. Generally accepted
accounting principles require that transactions be recorded based upon events that actually
occurred.

Monitoring Undelivered Orders

SBA did not adequately monitor undelivered orders, as discussed below:

Invalid Loan Program Undelivered Orders: During FY 2003, we noted that SBA maintained
invalid loan program undelivered orders. In response to our recommendation, SBA developed
two reports to aid disaster assistance and servicing offices in identifying invalid Disaster Program
undelivered orders resulting from duplicate loan approvals or based on the age of the undelivered
order. Although SBA made significant improvement in identifying and de-obligating invalid or
unneeded Disaster Program undelivered orders, we noted the following during FY 2004 testing:

        •   3 instances of duplicate loan approvals.

        •   35 instances of invalid posting logic at Transaction Code 212, which reestablished an
            undelivered order when a loan disbursement check was returned after the loan was
            cancelled.

In addition, we noted 12 instances in which SBA failed to de-obligate unneeded undelivered
orders for its Business Direct Loan Program in a timely manner.
This condition resulted in the following misstatements on the combined statement of budgetary
resources:

                        Financial Statement    General Ledger        Known           Projected
 Financial Statement
                             Line Item             Account        Misstatement      Misstatement
                                              7801B,
                       Undelivered Orders and Undelivered           $3,390,202        $31,872,616
Statement of           Obligations Incurred   Orders-Unpaid-        Overstated        Overstated
Budgetary Resources                           Loans
and Statement of
                                              7610, Allotments-
Financing              Unobligated Balances                         $3,390,202       $31,872,616
                                              Realized
                       Available                                   Understated       Understated
                                              Resources


During FY 2004, SBA corrected $1,259,595 of the known misstatements once we brought them
to its attention.

OMB Circular A-11, Preparation, Submission, and Execution of the Budget, defines a valid
obligation as a binding agreement that will result in outlays immediately or in the future. The
undelivered orders detailed above will not result in future outlays and should have been de-
obligated.

Administrative Undelivered Orders: During sample testing of administrative undelivered
orders, we identified a $1.5 million undelivered order for a grant for which the performance
period had expired on August 31, 2003. SBA stated that a verbal extension of the grant period
had been authorized, but it had not prepared and signed a written modification to the grant
agreement as of September 30, 2004. Accordingly, SBA could not provide support to substantiate
the need for this undelivered order nor could we determine its propriety without discussion with
the Office of Procurement and Grants Management (OPGM).

Part 31 U.S.C. Section 1501 (a) (5) requires an obligation to be supported by documentary
evidence of a grant payable under an agreement authorized by law.

Recommendation:

We recommend that the CFO:

1.C.    Continue to refine the review process implemented during FY 2004 to identify invalid or
        unneeded Disaster Program undelivered orders and develop a similar review process for
        the Business Direct Loan Program.

1.D.    Coordinate with the Director of OPGM to ensure that a written grant amendment is
        issued to extend the performance period for the grant identified above.

1.E.    Coordinate with OPGM to implement a control to ensure that all future administrative
        undelivered orders are supported by valid obligating documents.

ANTI-DEFICIENCY ACT COMPLIANCE

SBA did not have sufficient funds control to ensure that activity affecting expired salary and
expense funds was valid and did not result in Anti-Deficiency Act violations. For example, it
recorded $7.1 million of obligation activity in expired funds during FY 2004 that SBA
management could not readily explain as appropriate upward adjustments.

OMB Circular A-11, Section 20-13, Period of Availability for Making Disbursements, states that
budget authority is not available for new obligations during the expired phase of a fund. Agencies
may, however, use expired budget authority to make certain adjustments to obligations incurred
before budget authority expiration.

Because SBA did not routinely review these obligations to ensure Anti-Deficiency Act
compliance, it was unable to assure us that its FY 2004 obligation activity in expired funds met
OMB Circular A-11 criteria.

Recommendation:

1.F.    We recommend that CFO implement procedures to require senior management review
        and approval of all obligation activity in expired funds and maintain sufficient
        documentation to substantiate its validity and compliance with OMB Circular A-11 and
        the Anti-Deficiency Act.

INTRA-GOVERMENTAL TRANSACTIONS

While SBA strengthened its process for reconciling intra-governmental activity and balances with
trading partners, it was unable to reconcile a significant amount of intra-governmental activity
through September 30, 2004. In some instances, SBA did not fully capture the requisite trading
partner data, such as agency location code, in its accounting system. In addition, SBA’s contacts
with a significant trading partner, Office of Personnel Management, failed to resolve large
differences noted by Treasury. Further, SBA’s attempts to contact another significant trading
partner, General Services Administration, were not reciprocated.

Treasury Financial Manual, 2-4700, Agency Reporting Requirements for the Financial Report of
the United States Government (May 28, 2004), requires agencies to capture trading partner
information in their accounting systems and fully reconcile differences with trading partners on a
quarterly basis. Additionally, according to Treasury’s Federal Intragovernmental Transactions
Accounting Policies Guide (September 24, 2004), the responsibility for reconciliation of an
agency’s activity and balances is with the agency regardless of the trading partner’s involvement
with the transaction.

Recommendation:

1.G.    We recommend that the CFO strengthen internal controls to ensure that all requisite
        trading partner data are fully captured in SBA’s accounting system, and that all trading
        partners are contacted quarterly to reconcile differences. In addition, we recommend that
        CFO seek assistance from OMB to enhance cooperation from non-responsive trading
        partners.
                             2. CREDIT REFORM CONTROLS


SBA developed and implemented draft standard operating procedures for calculating re-estimates
and established an internal review and documentation process for all of its credit re-estimate
activities during FY 2004. This process covered the following elements:

        •       Ensuring version control and security over model input data.

        •       Verifying program structure and documenting technical changes to the model.

        •       Updating model assumptions and accounting data.

        •       Reviewing cash flows generated from the model for reasonableness.

        •       Ensuring completion of interest rate re-estimates when required.

        •       Ensuring use of appropriate discount rates.

        •       Reviewing accuracy of data used in the credit subsidy calculator or balances
                approach re-estimate calculator.

Standard operating procedures provided for a four-person review process. The preparer and first-
and second-level reviewers ensured that each of the procedures was executed correctly and was
sufficiently documented to support SBA’s re-estimate calculations. The fourth individual, an
SBA contractor with expertise in econometrics and statistical analyses, then performed an
independent verification and validation exercise.

The existence of and adherence to a set of standard operating procedures for calculating re-
estimates, along with more meaningful and standardized documentation of the process and
results, and an effective internal review process were critical to SBA’s success in meeting key
milestone dates. They also were essential to completing the audit process within an accelerated
financial reporting timeframe.

Although much substantial and noteworthy progress was made, additional improvements are
warranted to ensure that reasonable estimates can be produced and audited in a timely manner in
the future. We noted conditions during testing of the credit subsidy re-estimate process in the
following areas:

        •       Program-Level Accounting Data
        •       Historical Accounting Data in Cash Flow Models
        •       Discount Rates for Re-Estimates and Interest Transactions
        •       Projected Cash Balances
        •       Actual Cash Flows for Analytical Procedures

PROGRAM-LEVEL ACCOUNTING DATA

SBA prepared re-estimates for its loan-related activities at the program level, such as the 7a
guarantee program versus the SBIC Participating Securities Program or Disaster Loan Program.
SBA accounted for over 25 programs within its 3 financing funds. The accounting system did not,
however, have a unique data element to identify the program. Instead, SBA used a “point break”
data element within the accounting system and manually assigned multiple point breaks to each
program. Therefore, SBA was able to accumulate and analyze data at the program level outside of
the accounting system.

The proper segregation and integrity of data at the program level is essential for computing re-
estimates using the balances approach and performing other program-level analytical procedures,
such as comparing actual to estimated cash flows and validating data used in the re-estimate
models and cash-flow outputs produced by the models.

This process of accumulating data at the program level is labor intensive and subject to human
error and interpretation. Financial data are used by many individuals, including credit analysts,
accountants, program personnel, and auditors. While SBA made progress in identifying which
point breaks should be assigned to which programs, we noted some inconsistencies in program
classification among various analyses prepared by SBA. In addition, SBA had to manually
prepare and review data each time it was used. This was often time consuming and hindered
SBA’s ability to efficiently complete its analyses and our ability to perform our audit.

OMB Circular A-127 states:

                The design of the financial management systems shall reflect an agency-
                wide financial information classification structure that is consistent with
                the U. S. Government Standard General Ledger, provides for tracking of
                specific program expenditures, and covers financial and financially
                related information. This structure will minimize data redundancy,
                ensure that consistent information is collected for similar transactions
                throughout the agency, encourage consistent formats for entering data
                directly into the financial management systems, and ensure that
                consistent information is readily available and provided to internal
                managers at all levels within the organization.

Recommendation:

2.A.    We recommend that the CFO investigate the feasibility of enhancing the agency’s
        accounting data structure to include a program code within the financial reporting
        information system and update this new program code data element for existing financial
        records. If this is not feasible, we recommend that the CFO maintain an authoritative
        crosswalk between point breaks and programs and develop procedures to ensure accurate
        and consistent summarization of data at the program level.

HISTORICAL ACCOUNTING DATA IN CASH FLOW MODELS

The conditions we noted related to SBA’s development of its subsidy re-estimates are discussed
below.

Incorrect Estimated Disbursements

SBA calculated a re-estimate for a 2004 cohort under its 7a Supplementary Terrorist Assistance
Relief (STAR) program, although no new obligations were incurred or disbursements made
beyond the 2003 cohort. SBA forecasted second half of FY 2004 program demand for all cohorts
to project its September 30, 2004, cash balances. Because no disbursements were made in the first
half of the year for the 2004 cohort, the forecast model used loans from the second half of FY
2003 to project disbursement activity for the second half of FY 2004.

SBA’s quality assurance process did not detect that a re-estimate had been completed for a cohort
for which no budget authority existed. This resulted in a $143 million overstatement of forecasted
disbursements in the 2004 cohort, which produced an erroneous $1 million downward re-
estimate.

Incorrect Unpaid Principal Balances

SBA’s 7a model used unpaid principal balance (UPB) at the beginning of each quarter to forecast
cash flows in subsequent periods. Actual cash flow activity records for the period ended March
31, 2004, for loans in 1996 and 1997 cohorts were missing certain data elements, including one
that designated the loan status as either active or inactive. Loans with missing data were dropped
from the data set, and the UPB was understated for 1996 and 1997 cohorts. SBA estimated that
the FY 2004 re-estimates were understated by approximately $4.2 million as a result.

Incorrect Disaster Loan Program Borrowing

Beginning in FY 2003, SBA established new disaster loan point breaks to account for WTCP
physical and economic injury disaster loans. For a direct loan program, the unsubsidized portion
of the loan disbursement is funded by borrowing from Treasury. SBA did not, however, have any
borrowing transactions in its WTCP point breaks, because all borrowing was erroneously
attributed to the Disaster Loan Program point break codes. As a result, WTCP point breaks
showed a substantial amount of negative cash, and the Disaster Loan Program showed too much
cash.

In addition, SBA did not segregate its net cash balances between its Disaster Loan Program and
WTCP Program when computing and recording interest expense or income transactions with
Treasury during FYs 2002 and 2003. As a result, the cumulative net cash balances (uninvested
funds less debt owed to Treasury) for both programs were misstated in the accounting system.
SBA needed to manually reconstruct its net cash balances in order to use the balances approach
for re-estimating these programs.

SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, states:

                The efforts to make accurate projections should begin with
                establishing and using reliable records of historical credit
                performance data….

SBA made accounting adjustments during FY 2004 totaling about $500 million to realign its
borrowing activity between WTCP and regular disaster point breaks and calculated an additional
component to its re-estimate to cover the effects of failing to separately calculate and record
interest transactions with Treasury in its WTCP Program in prior years.

Incomplete Historical Data

SBA used incomplete disbursement and default data when developing its historical average
default and principal repayment assumption curves for its SBIC Participating Securities Program
cash flow model. These errors resulted in overstating subsidy re-estimates by approximately $2
million.
The Federal Accounting Standards Advisory Board’s (FASAB) Credit Reform Task Force
(Accounting and Auditing Policy Committee), Technical Release No. 6, Preparing Estimates for
Direct Loan and Loan Guarantee Subsidies under the Federal Credit Reform Act, requires
agencies to compare budgeted to actual cash flows to ensure that cash flow models reflect actual
cash flows from the accounting records. Additionally, Technical Release No. 6 requires budget
and accounting offices to ensure that cash flow models are updated to reflect actual cash flows
and terms of the loan program recorded in the accounting records.

Recommendation:

2.B.    We recommend that CFO continue to improve its quality assurance and review process to
        ensure that historical accounting data used in cash flow models are complete and accurate
        based on underlying accounting records.

DISCOUNT RATES FOR RE-ESTIMATES AND INTEREST TRANSACTIONS

To compute interest transactions with Treasury, SBA used discount rates that were inconsistent
with discount rates used to estimate the present value of future cash flows, which should be the
cohort weighted average or single effective discount rates set once a cohort becomes 90-percent
disbursed. This inconsistency likely stemmed from two circumstances.

First, the OMB Consolidated Credit Tool (c-credit tool) and Interest Calculator for Credit
Financing Accounts each compute the cohort weighted average discount rate based on yearly
disbursement amounts entered by the preparer. If different disbursement amounts are entered into
each tool, different discount rates will result and be used by the respective tool. Second, the single
effective discount rates (used for 2001 cohort and later) must be manually entered in the tools.
SBA did not have a procedure in place to make sure that single effective discount rates used for
interest transactions were the actual cohort discount rate when the cohort became 90-percent
disbursed.

We noted that SBA did not maintain an official list or database of the cohort weighted average or
single effective discount rates that were set when the interest rate re-estimates were performed.
SBA was required to retrieve subsidy re-estimate files from previous years, which were not
always available, to ensure that the appropriate discount rate was used in the current re-estimate.
A similar exercise was not performed when the interest transactions were calculated, and different
individuals were responsible for preparing the re-estimates and calculating the interest
transactions with Treasury.

The use of discount rates other than those set when the cohort became 90 percent disbursed
resulted in a net error of approximately $5 million.

The Federal Credit Reform Act of 1990 requires that the rate of interest charged by the Secretary
of Treasury on lending to financing accounts or paid to financing accounts on uninvested funds
be the same as the discount rate used in estimating net present values.

Recommendation:

2.C.    We recommend that the CFO develop and implement procedures for ensuring
        consistency and a clear audit trail between the discount rate resulting from the interest
        rate re-estimate and discount rates used for both subsequent technical re-estimates and
        calculations of interest income and expense transactions with Treasury.



PROJECTED CASH BALANCES

SBA used the “balances approach” for calculating its FYs 2004 and 2003 restated re-estimates.
This approach compares actual cash balances less debt owed to Treasury in the accounting system
with forecasted cash flows projected by the subsidy re-estimate models. Any excess or deficiency
in net cash balances results in a re-estimate under this approach. SBA began preparing its re-
estimates in the spring of 2004 and was able to use September 30, 2003, actual cash balances to
calculate the FY 2003 restated re-estimate. Starting with the March 2004 actual net cash balance,
SBA projected the second half of FY 2004 cash activity, such as purchases, collections, and FY
2004 interest income and expense transactions with Treasury.

SBA’s original projections for its non-disaster programs assumed that, as part of interest
transactions with Treasury, it would earn or pay interest for one-half of a year on the change
between the FY 2003 funded and FY 2003 restated re-estimates. Because the change will not be
funded until FY 2005, SBA should have calculated an additional amount of “interest on re-
estimate” for its FY 2003 restatements. SBA’s quality assurance procedures did not detect this
condition. SBA revised its FY 2004 re-estimates after we brought this to its attention.

The effect of this error did not change the total combined FY 2003 and FY 2004 re-estimates and
would not have occurred had SBA not needed to restate its FY 2003 re-estimates. Because of the
error, however, amounts recorded as subsidy re-estimate versus interest on re-estimates during
FY 2004 were misstated, impacting the consolidated statements of net cost and financing. The
effects ranged from $0.8 million to $6 million depending on the program and totaled
approximately $19 million.

In addition, SBA used an incorrect recovery curve to estimate recovery activity for the second
half of FY 2004 under the SBIC Debentures program. As a result, estimated balances on deposit
with Treasury as of September 30, 2004, were overstated, and the re-estimate was understated by
$442,574.

Recommendation:

2.D.    We recommend that CFO continue to refine its quality review procedures to ensure that it
        correctly applies procedures necessitated by the use of the balances approach, if
        restatements are required in the future.

ACTUAL CASH FLOWS FOR ANALYTICAL PROCEDURES

SBA prepared a cash flow component analysis of actual plus forecasted cash flows over the
cohort life for its SBIC Participating Securities Program. It included this analysis in supporting
documentation provided with the model as part of its quality assurance process. This analysis was
intended to be used to evaluate the reasonableness of the cash flow forecasts. It did not contain
explanations describing procedures performed or conclusions reached. In addition, we noted
instances in which the actual cash flows for FYs 1994 through 2003 did not agree with LAS, and
forecasted cash flows did not agree with the model output. To be reliable and effective, the
analysis should be accurate and demonstrate the test performed, test results, and conclusions
reached.

We noted that SBA did not perform a similar analysis of cohort-specific actual plus forecasted
cash flows for its other guaranteed loan programs. Unlike the traditional approach for re-
estimating, the balances approach does not require actual cash flow amounts to be included in the
cash flow spreadsheets. Although not required, an analysis of actual plus forecasted cash flow
streams over the life of the cohort, to determine if proper and intuitive relationships among cash
flow components exist, would be useful in explaining trends and substantiating the
reasonableness of cash flow projections.

In addition, SBA used March 31, 2004, cash balances annualized to September 30, 2004, to
establish its net cash balances with Treasury for its balances approach re-estimates. SBA
forecasted cash flow activity for the second half of the year, including purchases for defaulted
loans, recoveries on defaults, interest transactions on estimated cash balances, and other
collection and disbursement activities. At year-end, SBA compared its projections with actual
activity for the second half of FY 2004, and noted that it had consistently overestimated purchase
activity, which in turn affected projections of other cash flow components. The accelerated audit
schedule did not allow sufficient time to effectively analyze the cause of some differences or
develop an auditable approach to measuring the effects of such differences on projected re-
estimates and resulting account balances. While SBA had some features in place to study and
measure the impacts caused by such differences, it recognized that additional analytical
procedures and tools may be useful.

As noted in our Independent Auditor’s Report, we were not able to satisfy ourselves as to the
reasonableness of SBA’s FY 2004 subsidy re-estimates for the Section 7(a), 504, SBIC
Participating Securities, and SBIC Debenture Programs or its Credit Program Receivables and
Related Foreclosed Property and Liabilities for Loan Guarantees account balances for these four
programs.

Recommendation:

2.E.    We recommend that the CFO continue to develop and refine existing analytical tools and
        analyses to substantiate the reasonableness of forecasted cash flows and subsidy re-
        estimates produced by its models, including analytical analyses of actual plus projected
        cash flows over the cohort life, statistical methods for establishing the degree of
        uncertainty inherent in the subsidy models, and procedures to determine model quality.

2.F.    We recommend that the CFO develop and test an approach for quantifying the impact on
        re-estimates and account balances caused by differences between actual and projected
        cash flows if SBA continues to use interim data for computing its re-estimates.
               3. AGENCY-WIDE INFORMATION SYSTEMS CONTROLS


SBA continued to improve internal control over its information system environment in certain
areas during FY 2004. Specifically, SBA:

       •       Conducted certification and accreditation (C&A) reviews for additional major
               applications.

       •       Continued to implement the Windows 2000 operating system at various field
               locations.

       •       Conducted a disaster recovery exercise.

While these accomplishments are important and noteworthy, SBA continues to have serious
weaknesses in its information systems control environment, as discussed below:

       •       OCIO did not have an adequate information technology training program in place
               for personnel who administer or oversee SBA’s IT resources.

       •       Management had not corrected known deficiencies. Specifically, 14 of 26
               recommendations for 13 findings noted in FY 2003 were not adequately
               addressed.

       •       Duties within financial applications were not adequately segregated. SBA’s Joint
               Accounting and Administrative Management System (JAAMS) security
               administration and user account administration privileges have been granted to
               several individuals. In addition, we identified one user with both financial- and
               IT incompatible duties within JAAMS.

       •       Policies and procedures for the administration of the SBA’s network operating
               system have not been developed.

       •       No minimally-acceptable baseline configuration existed for SBA’s network
               operating system, general support computer operating systems, and database
               management system. In addition, we found several weaknesses within the
               security configurations of these platforms when compared to federal guidance
               and industry best practices promulgated by the Center for Internet Security,
               National Institute for Standards and Technology, and National Security Agency.

       •       Access authorization and restriction controls to the SBA network, JAAMS, LAS,
               and the Sybase general support systems were not adequate. Access authorization
               forms documenting approval of access and privileges granted were not required
               for the network, Sybase, and LAS. Although JAAMS did require access
               authorization forms, not all forms could be located for review.

       •       Emergency access authorizations to SBA’s Network, JAAMS, LAS, and the
               Sybase general support system were not adequately documented.

       •       Network, JAAMS, and LAS password controls were weak.
        •       SBA did not review inactive accounts on the network, LAS, or the Sybase
                general support system.

        •       Logging and monitoring of security events within SBA general support systems
                and JAAMS were inadequate.

        •       Business resumption plans have not been completed and fully incorporated into
                SBA’s Continuity of Operations Plan (COOP)

        •       Several vulnerabilities continued to exist on the SBA network.

SBA’s OIG will issue a separate report titled Audit of SBA’s Information System Controls, FY
2004, that will provide additional detail of our scope of work, findings, and recommendations in
the following categories:

        General Control Categories

        •       Entity-wide security program control
        •       Access control
        •       Application software development and program change control
        •       System software control
        •       Segregation-of-duty control
        •       Service continuity control

        Application Control Categories (Oracle administrative accounting system)

        •       Authorization control
        •       Completeness control
        •       Integrity of processing and data file control
        •       Accuracy control
STATUS OF PRIOR-YEAR FINDINGS

As required by Government Auditing Standards, we provide the status of reportable conditions
for the prior-year audit in the appendix.

OTHER MATTERS

We considered SBA’s internal control over required supplementary stewardship information by
obtaining an understanding of SBA’s internal control, determining if internal control had been
placed in operation, assessing control risk, and performing tests of control as required by OMB
Bulletin No. 01-02. Our objectives were not to provide assurance on internal control; accordingly,
we do not provide an opinion on such control.

Finally, with respect to internal control related to SBA performance measures, we obtained an
understanding of the design of significant internal control relating to existence and completeness
assertions, as required by OMB Bulletin No. 01-02. We concluded that SBA’s control over
performance measures did not ensure accuracy and reliability as required by OMB Bulletin 01-09
and prevailing FASAB standards. Our procedures were not designed to provide assurance on
internal control over reported performance measures; accordingly, we do not provide an opinion
on such control.

We also noted certain other matters involving internal control that we will report to SBA
management in a separate letter.

This report is intended solely for the information and use of SBA management, OMB, and
Congress and is not intended to be and should not be used by anyone other than these specified
parties.


COTTON & COMPANY LLP

[FOIA Ex.6]


Charles Hayward, CPA
Partner


November 15, 2004
Alexandria, Virginia
                                        APPENDIX

                      STATUS OF FY 2003 AUDIT FINDINGS



    Description                        Recommendation                                    Status
Credit Reform     Develop a comprehensive SOP detailing the subsidy re-
Controls          estimate process, including related internal controls, that
                  reflects SBA’s current re-estimate preparation processes and
                  any proposed improvements. Update the SOP at least                  Implemented
                  annually to capture significant changes such that it reflects
                  the current operating process. (1A)
                  Complete the Section 7(a) model documentation in
                  accordance with Tech Release No. 3 and assure that the
                  identified shortcomings are addressed by the documentation.
                  Perform and document the likelihood ratio test and                  Implemented
                  comparison of predicted versus actual default and
                  prepayment probabilities for subgroups of the population.
                  (1B)

                  Direct a coordinated effort among OCFO and Investment
                  Division to fully document the SBIC program models in               Implemented
                  accordance with Tech Release No. 3. (1C)
                  Clearly define which programs (program codes) should be
                  included in the Section 7(a) re-estimate actuals. (1D)              Implemented
                  Develop a quality assurance system to ensure that data
                  extracted from LAS for inclusion in the Disaster and 7(a)           Implemented
                  subsidy re-estimate models are complete and accurate. (1E)
                  Develop, as an interim measure, an internal control
                  procedure to reconcile the Investment Division SBIC
                  Participating Securities and Debenture transaction data to
                  LAS at the cohort and activity-year level; research and fully       Implemented
                  explain all variances; and determine if Investment Division
                  data are appropriate for use in subsidy re-estimates. (1F)
                  Begin recording all SBIC transactions in the proper fiscal
                  year and cohort and add SBIC-specific transaction codes to
                  LAS, as necessary, to better identify SBIC activity, so that        Implemented
                  SBIC subsidy re-estimate actuals can be derived from LAS
                  in the future. (1G)
                  Develop, document, and implement data quality assurance
                  procedures to establish the completeness and accuracy of
                  data provided by SBA’s fiscal and transfer agent for            Partially Implemented
                  Secondary Market Guarantee estimation purposes. (1H)
                  Determine if selection and development of the SBIC
                  Participating Securities model’s forecast assumptions are
                  consistent with program guidelines and are reasonable in
                  light of historical experience and current economic                 Implemented
                  conditions and document the basis for such assumptions.
                  (1I)




                            Draft for Discussion Purposes Only
    Description                            Recommendation                              Status
                     Develop a quality assurance review process to minimize
                     errors in calculating re-estimates and/or ensure that errors
                     that do occur are detected and corrected in a timely manner.    Implemented
                     (1J)
                     Direct a coordinated effort among applicable OCFO
                     branches to identify potential disconnects between the
                     agency’s subsidy models and accounting records and make         Implemented
                     refinements to subsidy models and post correcting entries to
                     the general ledger as appropriate. (1K)
                     Implement a system of internal control in which the Office
                     of Financial Analysis and the Office of Financial
                     Administration monitor the direct loan subsidy allowance
                     account balance and the liability for loan guarantees account
                     balance as compared to the outstanding balances of loans
                     and/or guarantees, at the program and cohort levels             Implemented
                     monthly. Maintain documentation that explains unusual
                     fluctuations determined to be appropriate, supports any
                     adjusting entries to the general ledger and details revisions
                     made to subsidy models and/or assumptions. (1L)

                     Ensure that the FRIS general ledger and subsidiary feeder
                     systems are properly accounting for credit reform activities
                     at the program and cohort levels in accordance with SFFAS       Implemented
                     No. 2. (1M)

Financial            Assess whether SBA has devoted sufficient and qualified
Management and       resources to adequately address its current financial
Reporting Controls   reporting shortcomings and determine if the current process     Implemented
                     is in need of re-engineering to meet accelerated financial
                     reporting deadlines in future years. (2A)
                     Develop a comprehensive plan with firm milestone dates to
                     meet the FY 2004 accelerated financial reporting date of        Implemented
                     November 15th. (2B)
                     Design specific procedures to identify accounts requiring
                     estimation or other adjustment in a timely manner to achieve    Implemented
                     proper valuation in the financial statements. (2C)
                     Lead a collaborative effort between the Office of Financial
                     Administration accountants and the Office of Financial
                     Analysis analysts, such that sufficient knowledge transfer is
                     achieved to enable SBA to design and implement                  Implemented
                     comprehensive and effective analyses and review processes
                     regarding estimates and other accounting adjustments. (2D)
                     Complete the document titled Checklist for Reports
                     Prepared Under the CFO Act--Revised 2003, as issued
                     jointly by the General Accounting Office and the President's
                     Council on Integrity and Efficiency, before submitting          Implemented
                     financial statements to help ensure the adequacy of financial
                     statement presentation and disclosure. (2E)




                               Draft for Discussion Purposes Only
Description                        Recommendation                                   Status
              Correct known budgetary proforma errors and perform a
              complete analysis of posting logic to ensure compliance            Implemented
              with the SGL at the transaction level. (2F)
              Coordinate with the Office of Disaster Assistance to
              develop and implement procedures to review and determine
              the validity of outstanding disaster Loan UDOs quarterly.          Implemented
              Invalid UDOs should be de-obligated to ensure efficient use
              of funds. (2G)
              Coordinate with the Director of the Office of Procurement
              and Grants Management to develop additional or strengthen
              existing internal controls to identify administrative              Implemented
              obligations with no activity and process de-obligations in a
              timely manner. (2H)
              Develop procedures to ensure proper cut-off to ensure
              completeness of administrative transactions for financial          Implemented
              reporting. (2I)
              Ensure that adequate supporting documentation is
              maintained to substantiate recorded administrative               Not Implemented
              obligations. (2J)
              Continue to review obligation activity posted against
              expired funds in FY 2003 and make a determination if the
              Antideficiency Act was violated. Maintain sufficient             Not Implemented
              documentation to ensure a clear audit trail during FY 2004.
              (2K)
              Develop control techniques to ensure that only valid
              obligation activity is posted against expired funds and
              review transactional detail monthly to ensure no invalid       Partially Implemented
              activity was posted. (2L)
              Investigate the possibility of implementing automated funds
              controls within the Loan Accounting System that allot the
              lesser of apportioned authority or realized resources at the       Implemented
              fund level. (2M)
              Enhance the cash management tracking system by
              implementing a control technique to ensure that obligations
              incurred transactions entered via journal voucher do not           Implemented
              exceed the lesser of apportioned authority or realized
              resources. (2N)
              Calculate and pay all interest due to immediate pay vendors
              for late payments in prior fiscal years and begin paying
              Prompt Payment Act interest to these vendors on future late        Implemented
              payments. (2O)
              Perform a thorough account analysis at the fund level to
              identify account and posting anomalies, such as accounts
              with unnatural balances. Any anomalies detected should be
              researched and subsequently corrected to ensure compliance         Implemented
              with SGL posting logic and federal accounting standards.
              (2P)




                        Draft for Discussion Purposes Only
    Description                           Recommendation                               Status
Agency-wide           Please refer to SBA’s OIG report titled Audit of SBA’s
Information Systems   Information System Controls, FY 2003.                    Unresolved. Updated
Control                                                                        in SBA’s OIG report
                                                                               titled Audit of SBA’s
                                                                               Information System
                                                                               Controls, FY 2004.




                                Draft for Discussion Purposes Only
                         INDEPENDENT AUDITOR’S REPORT ON
                       COMPLIANCE WITH LAWS AND REGULATIONS



Inspector General
U.S. Small Business Administration


We audited the consolidated balance sheets of the U.S. Small Business Administration (SBA) as
of September 30, 2004, and 2003 (restated); the related consolidated statements of net cost,
changes in net position, and financing; and the combined statements of budgetary resources for
the fiscal years then ended and have issued our report thereon, dated November 15, 2004. In that
report, we issued an unqualified opinion on the Fiscal Year (FY) 2004 combined statement of
budgetary resources and the FY 2003 consolidated balance sheet (as restated); issued a qualified
opinion on the FY 2004 consolidated balance sheet and statements of net costs, changes in net
position and financing; and disclaimed an opinion on the FY 2003 consolidated statements of net
cost, changes in net position, and financing and the combined statement of budgetary resources.

Except as described in our November 15, 2004, Independent Auditor’s Report referred to above,
we conducted our audits in accordance with auditing standards generally accepted in the United
States; standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and Budget
(OMB) Bulletin 01-02, Audit Requirements for Federal Financial Statements.

SBA management is responsible for complying with laws and regulations applicable to the
agency. As part of obtaining reasonable assurance about whether SBA’s financial statements are
free of material misstatement, we performed tests of agency compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin 01-02, including requirements referred to in the Federal Financial Management
Improvement Act (FFMIA) of 1996. We limited our tests of compliance to these provisions and
did not test compliance with all laws and regulations applicable to SBA.

Our Independent Auditor’s Report on Internal Control states that SBA had $8.7 million of
obligation activity in expired funds during FY 2004 (see the section in that report titled Anti-
Deficiency Act Compliance), which could not be readily explained as appropriate upward
adjustments by SBA management. Accordingly, we were not able to conclude whether or not
SBA violated the Anti-Deficiency Act.

The results of our tests of compliance with the laws and regulations described in the third
paragraph above, exclusive of FFMIA, disclosed the following instance of noncompliance, which
is required to be reported under Government Auditing Standards and OMB Bulletin No. 01-02.
Anti-Deficiency Act

During FY 2004, SBA’s Office of General Counsel (OGC) ruled that SBA improperly augmented
its appropriations by allowing its fiscal and transfer agent to retain the float interest earned on
fees collected on SBA’s behalf as compensation. Additionally, OGC determined that this practice
constituted a violation of the Anti-Deficiency Act. SBA has notified OMB about this violation
and is in the process of preparing an anti-deficiency letter required by the Act.

Also, SBA calculated the amount of float interest for each fiscal year during which this interest
was earned and identified the appropriate fiscal year funding source for these amounts. OMB
approved a $1.1 million reapportionment for SBA’s business loan guarantee financing account to
reflect spending authority from offsetting collections from federal sources. SBA recorded an
adjusting entry to move this amount from various salary and expense accounts to the financing
account.

Under FFMIA, we are required to report whether SBA's financial management systems
substantially comply with federal financial management system requirements, federal accounting
standards, and the United States Government Standard General Ledger (SGL) at the transaction
level. To meet this requirement, we performed tests of compliance with FFMIA Section 803(a)
requirements. Results of our tests disclosed instances, described below, indicating that SBA’s
financial management systems did not substantially comply with federal financial management
system requirements, federal accounting standards, and the United States SGL at the transaction
level.

Please see our Independent Auditor’s Report on Internal Control (applicable section cited) for
details regarding each of the matters discussed below.

SBA is not in substantial compliance with federal financial management system requirements,
because:

        •       Access control, segregation-of-duty, and other general-control weaknesses
                existed, which are described in the Office of Inspector General report titled Audit
                of SBA’s Information System Controls, FY 2004. (3. Agency-Wide Information
                System Controls)

        •       Security weaknesses and non-conformances with OMB Circular A-130,
                Management of Federal Information Resources, continued to exist in certain
                major applications and general support systems. (3. Agency-Wide Information
                System Controls)

        •       SBA maintained insufficient funds control over obligation activity in expired
                salary and expense funds. (1. Financial Management and Reporting Controls,
                Anti-Deficiency Act Compliance)

        •       SBA’s accounting system did not accumulate data at the program level to ensure
                that consistent financial information was collected and readily available for
                management at all levels of the organization, as required by OMB Circular No.
                A-127, Financial Management Systems. (2. Credit Reform Controls, Program-
                Level Accounting Data)

SBA was not in substantial compliance with federal accounting standards, because it:
       •       Incorrectly recorded borrowing transactions attributable to its World Trade
               Center/Pentagon (WTCP) Program to its Disaster Loan Program and
               commingled the net cash balances in its calculation of interest transactions with
               Treasury for FYs 2002 and 2003. (2. Credit Reform Controls, Incorrect Disaster
               Loan Program Borrowing)

       •       Used incorrect discount rates to calculate its interest income and expense
               transactions with Treasury. (2. Credit Reform Controls, Discount Rates for
               Interest Transactions)

       •       Submitted draft financial statements, related footnote disclosures, and other
               sections of the Performance and Accountability report, such as the Management
               Discussions and Analysis (MD&A) and Performance Report sections, that
               contained numerous, pervasive, and obvious errors including inconsistencies
               among the principal financial statements, footnotes, and MD&A and
               Performance Report sections. (1. Financial Management and Reporting Controls,
               Financial Statement Preparation and Quality Assurance)

       •       Did not assign disaster loan administrative expenses covered by an appropriation
               transfer to the proper strategic goal. (1. Financial Management and Reporting
               Controls, Improper Assignment of Disaster Administrative Expense to Strategic
               Goals)

       •       Did not segregate the present value of future cash flows for its Small Business
               Investment Company (SBIC) Participating Securities Program between the
               Liability for Loan Guarantees and Credit Program Receivables and Related
               Foreclosed Property. (1. Financial Management and Reporting Controls, Subsidy
               Realignment Entry)

       •       Recorded additional interest on re-estimates to the wrong accounting period. (1.
               Financial Management and Reporting Controls, Disaster Loan Program Interest
               Transactions with Treasury)

       •       Overstated loan undelivered orders because it failed to deobligate unneeded
               obligations. (1. Financial Management and Reporting Controls, Invalid Loan
               Program Undelivered Orders)

       •       Incorrectly treated an appropriation transfer from another agency as reimbursable
               activity rather than appropriated funds. (1. Financial Management and Reporting
               Controls, Improper Accounting Treatment for Appropriation Transfer)

       •       Presented its FY 2003 net costs of operations in total, rather than by strategic
               goal. (Independent Auditor’s Report)

SBA was not in substantial compliance with the United States Government SGL at the transaction
level, because:

       •       SBA misstated unexpended appropriations and cumulative results of operations
               account balances in several funds. (1. Financial Management and Reporting
               Controls, Net Position Balances)
        •       SBA recorded invalid spending authority from offsetting collections and
                obligations incurred due to improper budget pro-forma posting logic. (1.
                Financial Management and Reporting Controls, Invalid Budgetary Proforma
                Entries)

SBA’s Office of the Chief Financial Officer is responsible for financial management systems
within SBA. We recommend that SBA assign priority to corrective actions for these FFMIA-
related matters consistent with requirements of OMB Circular A-50, Audit Followup.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our work; accordingly, we do not express such an opinion.

This report is intended solely for the information and use of SBA management, OMB, and
Congress and is not intended to be and should not be used by anyone other than these specified
parties.


COTTON & COMPANY LLP

[FOIA Ex. 6]


Charles Hayward, CPA


November 15, 2004
Alexandria, Virginia
Introduction
This is the fourteenth year the Small Business Administration (SBA) has issued agency-wide
financial statements. Preparation of financial statements is a critical aspect of ensuring the
accountability and stewardship for the public resources entrusted to the SBA. Preparation of
these statements is also an important part of the Agency financial management goal of providing
accurate and reliable information that may be used to assess performance and allocate resources.

Extensive improvements were made to the financial statements in Fiscal Years (FY) 2003 and
2004. In FY 2003 the SBA addressed critical longstanding issues on the cost of the Disaster
Program and the sale of Disaster loans as part of SBA’s Loan Asset Sale Program. During FY
2003 inconsistencies and weaknesses in the budgeting and accounting for the SBA’s Loan Asset
Sale Program were substantially corrected. A new subsidy model was built to forecast Disaster
Program costs and the FY 2003 financial statements (as restated) and footnotes accurately
include the cost of the Disaster Program. During FY 2004 the SBA conducted extensive analysis
of its Disaster Program account balances to verify the accuracy of its overall Disaster Program
cost. This was done as part of the “balances approach” to reestimate the Disaster Program
subsidy during FY 2004. This analysis resulted in restatements to the FY 2003 financial
statements published in January 2004.

During FY 2003 the SBA also updated its 7(a) econometric model first used for the FY 2003
budget. In addition, during FY 2003 the Agency updated assumptions used for defaults and
recoveries in its Small Business Investment Company (SBIC) Program models and built a new
model for its 504 Development Company Program used for the FY 2005 budget. SBA
completed this work through an aggressive approach that employed Agency as well as outside
modeling experts, consultation with the Office Management and Budget (OMB) and extensive
review and quality assurance by outside modeling experts. During FY 2004 substantial analysis
was conducted to verify the accuracy of 7(a) and 504 Program subsidy accounts and costs in
preparation for the use of the “balances approach” for FY 2004 subsidy reestimates (including
restatement of FY 2003 subsidy costs and related account balances). Also during FY 2004 the
SBIC subsidy cost estimates were improved through an extensive data “cleanup” and a review of
the subsidy reestimate model assumptions to assure consistency with SBIC Program projections.

During FY 2003 SBA also built a new model to estimate the sufficiency of the Master Reserve
Fund (MRF) to fund the Secondary Market Guarantee (SMG) to investors in 7(a) securities.
Also during FY 2003 the Agency developed a new procedure to estimate the liability for
guarantees for the pre-Federal Credit Reform business loan portfolio. During FY 2004
documentation of the internal controls over the MRF data was improved and the reestimate of
the cost of the SMG was further refined, resulting in a restatement of the FY 2003 financial
statements.

In the FY 2003 audit, our independent auditor determined that the SBA did not furnish sufficient
evidence in a timely manner to support the accuracy of the Agency’s credit program costs. In
addition the delayed delivery of the SBA’s financial statements did not leave sufficient time for
the SBA’s auditor to verify the final submission of the SBA’s financial statements. As a result, a
“disclaimed” opinion was issued on the SBA’s FY 2003 financial statements. For FY 2004 the
SBA has adhered to an accelerated schedule for the development and review of its financial
statements. In addition SBA has improved the quality of its FY 2004 financial statements. It has
provided improved documentation of the process and internal controls used in its accounting and
reporting of its program and administrative costs.

The responsibility for the accuracy and propriety of the information contained in the principal
financial statements and the quality of internal controls rests with SBA’s management. The
statements are, in addition to other financial reports, used to monitor and control budgetary
resources. The financial statements have been prepared from the books and records of the
Agency in accordance with generally accepted accounting principals (GAAP) for Federal
agencies and the formats prescribed by OMB. The Agency recognizes it cannot liquidate
liabilities not covered by budgetary resources without an enactment of an appropriation by
Congress and an apportionment by OMB.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.

Balance Sheet
The Consolidated Balance Sheet summarizes the assets, liabilities and net position as of the end
of the fiscal year. For clarity in presentation, assets and liabilities have been differentiated
between those resulting from transactions between Federal agencies (intragovernmental) and
those resulting from transactions with non-Federal entities. Information for two years is
presented for the purpose of comparison.

SBA’s net position consists of Unexpended Appropriations and Cumulative Results of
Operations. Unexpended Appropriations reflects spending authority made available to SBA by
congressional appropriation. Cumulative Results of Operations reflects the net results of SBA’s
operations over time.

Statement of Net Cost
The Consolidated Statement of Net Cost shows, by strategic goal, how much it cost SBA to
provide its services for the fiscal year. Net cost is calculated by subtracting earned revenues
from gross costs. SBA did not present a detailed comparative Statement of Net Cost since its
strategic goals changed from FY 2003 to FY 2004.

Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position shows SBA’s beginning and ending net
position by two major components - Cumulative Results of Operations and Unexpended
Appropriations - both of which are shown under Net Position on the Balance Sheet. The
Statement of Changes in Net Position summarizes the major categories of transactions that
caused the net position to change during the year.
Statement of Budgetary Resources
The Combined Statement of Budgetary Resources provides information about the funding and
availability of budgetary resources and the status at the end of the reporting period. It is the only
financial statement from which data is derived exclusively from budgetary accounts in the
general ledger.

Data on the Combined Statement of Budgetary Resources is consistent with budget execution
information on the Standard Form (SF) – 133 Report on Budget Execution and Budgetary
Resources, with one exception. A line item, Offsetting Receipts, has been added to the
Combined Statement of Budgetary Resources. Offsetting Receipts are used to offset budgetary
authority and outlays at the Agency level and are presented in this statement for the purpose of
reconciling outlay information in the Budget of the United States Government.

Statement of Financing
The Consolidated Statement of Financing shows the relationship between SBA’s net obligations
and net cost of operations. Net obligations are drawn from budgetary accounting, and net cost of
operations are drawn from proprietary accounting by identifying key differences between the two
amounts. The statement shows total resources used within the reporting period and adjustments
to these resources based upon their usage to finance net obligations or net cost.
                                         U. S. Small Business Administration
                                           Consolidated Balance Sheet
                                  as of September 30, 2004 and September 30, 2003

(Dollars in Thousands)                                                                                  Restated
                                                                                    2004                 2003
ASSETS

Intragovernmental Assets
  Fund Balances with Treasury (Note 2)                                         $     7,072,582      $   2,798,677
  Accounts Receivable (Note 5)                                                                             12,650
  Advances (Note 8)
Total Intragovernmental Assets                                                       7,072,582          2,811,327

Assets - Public and Other
  Cash (Note 3)                                                                            22,510           5,331
  Accounts Receivable (Note 5)                                                             39,457          35,472
 Credit Program Receivables and Related Foreclosed Property, Net (Note 6)            3,413,244          3,532,595
 Equipment and Internal Use Software (Note 7)                                           19,789              8,522
Total Assets - Public and Other                                                      3,495,000          3,581,920
Total Assets                                                                   $    10,567,582      $   6,393,247

LIABILITIES

Intragovernmental Liabilities
  Accounts Payable (Note 10)                                                   $        10,297      $      13,739
  Debt (Note 11)                                                                     8,603,974          6,706,379
  Net Assets of Liquidating Funds Due to Treasury (Note 12)                            299,516            407,109
  Other (Note 14)                                                                      567,073            652,299
Total Intragovernmental Liabilities                                                  9,480,860          7,779,526

Other Liabilities - Public
 Accounts Payable (Note 10)                                                                33,894          49,648
 Liabilities for Loan Guarantees (Note 4 and 6)                               2,524,052       2,541,530
 FECA Actuarial Liability (Note 13)                                              28,436          31,822
 Other (Note 14)                                                                102,615         108,091
Total Other Liabilities - Public                                              2,688,997       2,731,091
Total Liabilities                                                        $   12,169,857    $ 10,510,617

NET POSITION

Unexpended Appropriations                                                $      540,894    $    573,974
Cumulative Results of Operations                                             (2,143,169)     (4,691,344)
Total Net Position                                                       $   (1,602,275)   $ (4,117,370)

Total Liabilities and Net Position                                       $   10,567,582    $   6,393,247

The accompanying notes are an integral part of these statements.
See Note 19 for additional information related to restatement of 2003.
                                                        U. S. Small Business Administration
                                          Consolidated Statement of Changes in Net Position
                                        for the periods ended September 30, 2004 and September 30, 2003



(Dollars in Thousands)                                                                                                                                              Restated
                                                                                                       2004                                                          2003


                                                                         Cumulative Results         Unexpended                            Cumulative Results      Unexpended
                                                                           of Operations           Appropriations          Total            of Operations        Appropriations          Total
Beginning Net Position As Previously Restated                                                                                             $      (2,697,964)   $         954,633     $    (1,743,331)
 Prior Period Adjustments                                                                                                                           425,075             (273,500)            151,575
Beginning Net Position, as Adjusted                                      $       (4,691,344)   $           573,974     $    (4,117,370)   $      (2,272,889)   $         681,133     $    (1,591,756)



Budgetary Financing Sources
 Appropriations Received                                                                                  4,430,112          4,430,112                                  1,982,908          1,982,908
 Appropriations Transferred - In/Out (+/-)                                                                   30,000             30,000                                     (9,000)            (9,000)
 Rescissions                                                                                                 (8,040)            (8,040)                                   (29,369)           (29,369)
 Adjustment - Cancelled Authority                                                                            (6,353)            (6,353)                                    (5,978)            (5,978)
 Other Adjustments                                                                  (1,253)                (101,756)          (103,009)                                   (30,581)           (30,581)
 Appropriations Used                                                             4,377,043               (4,377,043)                              2,015,139            (2,015,139)
 Donations of Cash and Cash Equivalents                                                426                                         426                  207                                     207

Other Financing Sources
 Transfers - In/Out Without Reimbursement (+/-)                                   (102,741)                                   (102,741)            (496,728)                                (496,728)
 Imputed Financing from Costs Absorbed by Others                                    17,858                                      17,858               19,063                                   19,063
 Other - Current Year Liquidating Equity Activity (+/-)                              4,379                                       4,379               (6,878)                                  (6,878)
Total Financing Sources                                                  $       4,295,712     $           (33,080)    $     4,262,632    $       1,530,803    $         (107,159)   $     1,423,644


Less: Net Cost of Operations                                             $       1,747,537                             $     1,747,537    $       3,949,258                          $     3,949,258



Ending Net Position                                                      $       (2,143,169)   $           540,894     $    (1,602,275)   $      (4,691,344)   $         573,974     $    (4,117,370)


Note 16
The accompanying notes are an integral part of these statements.
See Note 19 for additional information related to restatement of 2003.
                                                               U. S. Small Business Administration
                                                     Combined Statement of Budgetary Resources
                                                 for the periods ended September 30, 2004 and September 30, 2003
(Dollars in Thousands)
                                                                        2004                                                      2003

                                                                  Non-Budgetary                                               Non-Budgetary
                                                 Budgetary          Financing             Total              Budgetary          Financing           Total

BUDGETARY RESOURCES
Budget Authority
 Appropriations Received                   $       4,430,112     $                   $      4,430,112    $     1,982,908      $                 $   1,982,908
 Borrowing Authority                                                    2,203,099           2,203,099                             1,158,196         1,158,196
 Net Transfers (+/-)                                  30,000                                   30,000
 Other

Unobligated Balance
 Brought Forward October 1                           415,697            1,769,202           2,184,899              711,921        6,049,860         6,761,781
 Net Transfers (+/-)                                                                                                (9,000)                            (9,000)

Spending Authority from Offsetting Collections
   Earned                                            365,014            5,222,293           5,587,307              487,232        2,963,617         3,450,849

    Change in Unfilled Customer Orders                (15,294)            (21,251)            (36,545)              (8,898)         (12,930)          (21,828)
Recoveries of Prior Year Obligations                  42,994              108,998            151,992             125,914              85,615           211,529
Permanently Not Available                           (241,346)            (284,147)          (525,493)           (461,404)         (5,567,309)       (6,028,713)
Total Budgetary Resources                  $       5,027,177     $      8,998,194    $    14,025,371     $     2,828,673      $    4,677,049    $    7,505,722


(Dollars in Thousands)
                                                                        2004                                                      2003

                                                                  Non-Budgetary                                               Non-Budgetary
                                                 Budgetary          Financing             Total              Budgetary          Financing           Total
STATUS OF BUDGETARY RESOURCES

Obligations Incurred                       $       4,639,787     $      3,009,311    $      7,649,098    $     2,412,968      $   2,907,847     $   5,320,815
Unobligated Balances, Available
  Apportioned - Currently Available                                185,675         2,457,091         2,642,766           287,327         1,236,696         1,524,023
  Exempt from Apportionment                                                                                                  365                                 365

Unobligated Balances, Not Available                                201,715         3,531,792         3,733,507           128,013           532,506           660,519

Total Status of Budgetary Resources                   $      5,027,177        $    8,998,194    $   14,025,371    $     2,828,673    $   4,677,049     $   7,505,722




RELATIONSHIP OF OBLIGATIONS                                                   Non-Budgetary                                          Non-Budgetary
TO OUTLAYS                                                Budgetary             Financing           Total             Budgetary        Financing           Total

Obligated Balance, Beginning of Period   $                         473,939    $     139,831     $     613,770     $      523,869     $     207,090     $     730,959
Obligated Balance, End of Period
   Accounts Receivable                                                                                                     (3,264)         (34,862)          (38,126)
   Unfilled Customer Orders from Federal
      Sources                                                         (233)        (106,732)          (106,965)             (233)         (127,983)         (128,216)
   Undelivered Orders                                              336,242          366,232            702,474           382,886           261,053           643,939
   Accounts Payable                                                 77,207           23,593            100,800            94,550            41,623           136,173
      Total Obligated Balance, End of
      Period                                                       413,216          283,093           696,309            473,939           139,831           613,770
Outlays
 Disbursements                                               4,660,782             2,813,163         7,473,945          2,350,241         2,923,581         5,273,822
 Collections                                                  (352,982)           (5,257,156)       (5,610,138)          (491,596)       (2,984,774)       (3,476,370)
     Subtotal                                                4,307,800            (2,443,993)        1,863,807          1,858,645           (61,193)        1,797,452

  Less: Offsetting Receipts                                                         230,309           230,309                              299,819           299,819

Net Outlays                                           $      4,307,800        $   (2,674,302)   $    1,633,498    $     1,858,645    $    (361,012)    $   1,497,633

Note 17
The accompanying notes are an integral part of these statements.
                                                           U. S. Small Business Administration
                                                        Consolidated Statement of Financing
                                           for the periods ended September 30, 2004 and September 30, 2003

(Dollars in Thousands)                                                                                                         Restated
                                                                                                         2004                   2003
Resources Used to Finance Activities
Budgetary Resources Obligated
 Obligations Incurred                                                                             $          7,649,098     $      5,320,815
 Less: Spending Authority from Offsetting Collections and Recoveries                                         5,702,754            3,640,550
 Obligations Net of Offsetting Collections and Recoveries                                                    1,946,344            1,680,265
 Less: Offsetting Receipts                                                                                     230,309              299,819
Net Obligations                                                                                   $          1,716,035     $      1,380,446

Other Resources
 Transfers In (Out)                                                                                           (102,741)            (496,728)
 Imputed Financing                                                                                              17,858               19,063
 Other Financing Sources                                                                                         4,379               (6,878)
Net Other Resources Used to Finance Activities                                                    $            (80,504)    $       (484,543)
Total Resources Used to Finance Activities                                                        $          1,635,531     $        895,903

Resources Used to Finance Items not Part of the Net Cost of Operations
 Change in Budgetary Resources Obligated for Goods, Services, and Benefits
    Ordered But Not Yet Provided                                                                  $            (80,641)    $           12,025
 Resources that Fund Expenses Recognized in Prior Periods                                                          667
 Budgetary Offsetting Collections and Receipts that Do Not Affect Net Cost of Operations
      Credit Program Collections                                                                              5,221,793           2,963,617
      Offsetting Receipts                                                                                       230,309             299,819
 Resources that Finance the Acquisition of Assets or Liquidation of Liabilities                              (2,751,423)         (2,691,952)
 Adjustments to Net Obligated Resources That Do Not Affect Net Cost of Operations                                1,749                    1,323
Total Resources Used to Finance Items Not Part of the Net Cost of
   Operations                                                                                     $          2,622,454     $        584,832

Total Resources Used to Finance the Net Cost of Operations                                        $          4,257,985     $      1,480,735

Components of the Net Cost of Operations that will not Require or Generate
   Resources in the Current Period
Components Requiring or Generating Resources in Future Periods
 Change in Annual Leave Liability                                                                 $                (568)   $               650
 Change in Contingent Liability                                                                                    (800)
 Upward/ Downward Reestimates of Credit Subsidy Expense                                                      (2,527,704)          2,418,283
 Change in Revenue Receivable from Public                                                                         1,618               7,963
 Other - Current Year Liquidating Equity Activity (+/-)                                                          (4,379)              6,878
 Provision for Losses on Estimated Guarantees                                                                     1,736              10,092
 Change in Unfunded Employee Benefits                                                                            (3,605)                671

Total Components of the Net Cost of Operations that will not Require or Generate
   Resources in the Current Period                                                                $          (2,533,702)   $      2,444,537

Components Not Requiring or Generating Resources
 Depreciation or Amortization                                                                                    3,074                  3,018
 Bad Debt Expense - Noncredit Reform                                                                            20,180                 20,968

Total Components of Net Cost that will Not Require or Generate
   Resources                                                                                      $             23,254     $           23,986
Total Components of Net Cost of Operations Not Requiring or Generating
   Resources in the Current Period                                                                $          (2,510,448)   $      2,468,523
Net Cost of Operations                                                                            $           1,747,537    $      3,949,258

Note 18
The accompanying notes are an integral part of these statements.
See Note 19 for additional information related to restatement of 2003.
Note 1. Significant Accounting Policies

A.     Basis of Accounting and Presentation

These consolidated financial statements have been prepared to report the financial
position, net cost of operations, changes in net position, budgetary resources and
reconciliation between net budgetary expenditures and net costs of the U.S. Small
Business Administration (SBA). These statements are required by the Chief Financial
Officers Act of 1990 and the Government Management Reform Act of 1994. They have
been prepared from the accounting records of SBA maintained in accordance with
generally accepted accounting principles (GAAP) of the United States Government as
promulgated by the Federal Accounting Standards Advisory Board (FASAB).

The statements reflect transactions recorded on both a proprietary accrual accounting
basis, and a budgetary obligation basis, in accordance with concepts and guidance
provided by the Office of Management and Budget (OMB) in Circular A-11,
"Preparation, Submission, and Execution of the Budget." Under the accrual method,
revenues are recognized when earned and expenses are recognized when liabilities are
incurred, without regard to receipt or payment of cash. Budgetary accounting recognizes
legal obligation of funds often in advance of the proprietary accrual, and facilitates
compliance with legal constraints and controls over the use of Federal funds.


B.     Use of Estimates

The preparation of the financial statements in accordance with GAAP of the United
States Government requires Agency management to make assumptions and estimates
directly affecting the amounts reported in the financial statements. Actual results may
differ from those estimates.

Estimates for credit program receivables and liabilities contain assumptions of future
results that have a significant impact on the financial statements. These assumptions
include loan disbursement, repayment, delinquency, default and recovery rates. Actual
rates in the future may differ significantly from the assumptions made at the time the
financial statements were prepared. Minor adjustments to any of these assumptions may
create significant changes to the estimate.
The Agency recognizes the sensitivity of the changes in assumptions and the impact that
the projections can have on estimates. Econometric modeling is used for the 7(a) and 504
Programs to improve the statistical accuracy of the projection of future cash flows. Near
term cash flows for the Small Business Investment Company (SBIC) Program reflect the
best available estimates, at this time, of defaults and recoveries. Disaster loan models
utilize individual loan data to optimize the models forecasting. The assumptions used for
current year and prior year statements are based on the best information available at the
time the estimates were prepared. In addition, all models and assumptions are updated
periodically to reflect changing conditions.

Reestimates included in these financial statements may differ from the reestimates
submitted with the President’s budget in February, 2005. These may differ because the
reestimates in the budget include the President’s most recent economic assumptions,
which are not available in time for these financial statements. The revised economic
assumptions include economic factors such as gross domestic product (GDP) and
unemployment rates that are included in the 7(a) and 504 models. The changed factors
could affect 7(a) and 504 default and prepayment forecasts. In addition, changes in
interest rate forecasts could affect SMG earnings forecast. The revised economic
assumptions will also include the interest rate used for the present value discount
calculation for cohorts for which an interest rate reestimate is being completed this year.
Although these factors could result in different subsidy costs, the direction and magnitude
of these changes are not known at this time. Finally, the estimates for the financial
statements were based on annualized cash flows through September 30, 2004.
Reestimates for the budget will include actual cash flows for FY 2004.

C.     Reporting Entity

SBA was created as an independent Federal Agency by the Small Business Act of 1953.
Its mission is to maintain and strengthen the Nation's economy by aiding, counseling,
assisting and protecting the interests of small business and to help businesses and families
recover from disasters.

The 7 (a) Business Loan, 504 Development Company and SBIC Programs are SBA's
major credit programs to assist small business. SBA's non-credit programs providing
small business assistance include Surety Bond Guarantees (SBG), Business Development
for minority firms, Government Contracting assistance and Entrepreneurial Development
assistance to counsel and train small business entrepreneurs. In addition, SBA’s
Advocacy Program promotes the interests of small business in government legislative
and regulatory forums. SBA's Disaster Loan Program provides assistance to victims of
physical and economic disasters such as earthquakes, floods and hurricanes by extending
direct loans to individuals and businesses.

SBA operates through the execution of a congressionally approved budget that funds its
programs. SBA's budget consists of annual, multi-year and no-year appropriations which
fund salaries and expenses and the various program activities.

Under the aegis of the Federal Credit Reform Act of 1990 (FCRA), as amended, SBA
utilizes program and financing accounts to record events for its business direct and
guaranteed loans and disaster loans, and utilizes Liquidating Accounts for its Pollution
Control Equipment Guarantees and pre-FY 1992 business and disaster loans. A
revolving fund is used to record SBG accounting events and administrative funds are
used to account for salaries and expenses of the Agency and its Inspector General.
Finally a trust fund, funded by donations made by non-Federal entities, is used to record
accounting events for business assistance.


D.     Budgets and Budgetary Accounting for Loan Programs

SBA's loan disbursements are financed by a combination of two sources - one for the
long term cost of the loan (subsidy cost) and another for the remaining non-subsidized
portion of the loan. Congress provides one-year, multi-year and no-year appropriations
to cover the estimated long term costs of SBA loan programs. The long term costs are
defined as the net present value of the estimated cash outflows associated with the loans,
less the estimated cash inflows. The portion of each loan disbursement that does not
represent long term cost is financed under permanent indefinite authority to borrow funds
from the U.S. Department of Treasury (Treasury). Congress also limits the dollar amount
of obligations that can be made for direct loans and loan guarantees in its annual
appropriation bill.

A permanent indefinite appropriation is available to finance any increase in the estimated
subsidy costs (reestimates) that occurs after the year in which a loan is disbursed.
Reductions in the estimated long term subsidy cost arising from reestimates are returned
to Treasury and are unavailable to the Agency. Modification of direct loans or loan
guarantees requires budget authority be appropriated for the additional cost if not
available from existing appropriations or other budgetary resources.


E.     Fund Balances with Treasury and Cash

Fund Balances with Treasury and cash consist of appropriated, financing, liquidating,
revolving and trust funds. These funds are available to make expenditures and pay
liabilities. Fund balances also include expired year amounts which are unavailable for
obligation. Cash receipts and disbursements are processed by Treasury (See Notes 2 &
3).


F.     Accounts Receivable

Accounts Receivable - Intragovernmental are reimbursements due from other Federal
agencies and funds. In addition, SBA records interfund receivables and payables
between its program and financing funds for its subsidy reestimates that are eliminated in
its consolidated statements.

Accounts Receivable that are not intragovernmental primarily represent amounts due
from participating financial institutions for guarantee fees. The balance in the Salaries
and Expenses fund represents receivables due from Agency employees or vendors for net
credits from various transactions (See Note 5).
SBA has determined uncollectible or unrecoverable accounts receivable are not
significant and does not provide an allowance. The historic immateriality of losses is due
to stringent collection policies and the ability to offset against the lender's share of
collections, payments to employees and payments to vendors.


G.      Credit Program Receivables and Related Foreclosed Property

Reporting requirements for direct loan obligations made after FY 1991 are governed by
the FCRA. The FCRA requires the subsidy costs be reported on a present value basis.
The subsidy cost is the present value of the estimated cash outflows over the life of the
loans minus the present value of the estimated cash inflows, discounted at the interest rate
of marketable Treasury securities with a similar maturity term. The FCRA also requires
the present value of subsidy cost be recognized as a cost in the year that the loan is
disbursed. Direct loans are reported net of an allowance for subsidy at the present value.

Loans obligated prior to the FCRA are recorded at book value with an allowance for
uncollectible amounts.

SBA also guarantees loans made by participating lenders in its Business Loan, 504
Development Company and Small Business Investment Company programs. Upon
default, these guaranteed loans are purchased by SBA and treated as loan receivables.
The reporting requirements for these loan receivables are also governed by the FCRA and
they are reported net of an allowance for subsidy determined in a similar manner as
SBA’s direct loans (See Note 6).

SBA advances payments semiannually to the Federal Financing Bank (FFB) for loans
guaranteed under Section 503 of the Small Business Act. The advances are liquidated by
receipt of the installment payments on loans made by state and local development
companies. To the extent that those installments may not repay advances, balances from
development companies that remain collectible are reported as credit programs.

Advances are similarly made to honor SBA’s timely payment requirement of principal
and interest due for debentures in SBA’s Section 504 and SBIC Programs. These
advances are reported as credit program receivables.

Foreclosed property acquired as a result of defaulted loans or guarantees is valued at the
net realizable value. The net realizable value is reevaluated annually by SBA field
managers. For loans made after FY 1991 under FCRA, the estimated losses on the sale
of collateral are included in the forecasted cash flow used to determine the credit subsidy
allowance.

H.      Equipment and Internal Use Software

Computer-related equipment and other equipment (non computer-related) are capitalized
at full cost, if the initial unit acquisition cost is $50,000 or more and service life is at least
two years; otherwise, it is expensed when purchased. Computer-related equipment is
depreciated using the straight-line method over three years. Other equipment is
depreciated using the straight-line method over five years.

Software for internal use, whether it is internally developed, contractor developed, or
commercial off-the-shelf (COTS), is capitalized at cost provided that the initial unit
acquisition cost is $250,000 or more and the service life is at least two years. The costs
subject to capitalization are all the direct and indirect costs incurred (whether SBA or
contractor developed or COTS purchased), including overhead. Software development
begins after the planning phase of the system project when management has decided to
go ahead with software implementation. Data conversion costs during implementation
and post implementation costs for operation and maintenance of the system are not
included in software development costs to be capitalized. Software for internal use is
depreciated using the straight-line method over its useful life, not to exceed five years.
The depreciation of capitalized costs begins when the system is put into operation. The
costs of enhancements are capitalized when it is more likely than not that the
enhancements will result in significant additional capabilities. Costs that do not meet the
capitalization criteria are expensed when incurred (See Note 7).


I.     Accounts Payable

Accounts Payable – Intragovernmental are payables due to other Federal agencies and
funds that will be liquidated during the next operating cycle. SBA records interfund
receivables and payables between program and financing funds for its subsidy
reestimates. Additionally, SBA recognizes as accounts payable unpaid amounts to
Federal vendors for goods and services provided as of the balance sheet date.

Accounts Payable – Public are payables due to non-Federal entities that will be liquidated
during the next operating cycle. Included in this liability are payables to banks and
vendors (See Note 10).


J.     Debt

Borrowings payable to Treasury result from loans provided by Treasury to fund a portion
of SBA’s credit reform financing accounts activity. SBA is required to make periodic
principal payments to Treasury based on the collections of loans receivable.

Borrowings payable to FFB are the result of its financing of SBA Section 503 Debentures
issued prior to 1988. SBA, as the servicing agent, collects on the underlying loan
receivables and repays its debt to FFB (See Note 11).


K.     Net Assets of Liquidating Fund Due to Treasury
Net Assets of Liquidating Funds Due to Treasury is the residual of the book value of
assets less liabilities of the Liquidating Funds. SBA returns to Treasury each year the
portion of this balance that has been converted to cash (See Note 12).


L.     Liability for Loan Guarantees

There are two components to the Agency’s liability for guaranteed loans: liabilities for
losses on pre-FY 1992 loans; and liabilities on post-FY1991 loans made under the FCRA
legislation. For pre-FY 1992 loans, the amount is an estimate of losses on guarantees
outstanding based on historical experience. For post-FY1991 loans, the liability is based
on the present value of future cash flows related to the guarantees in force as of year end
(See Note 6-L).


M.     Contingencies

SBA is a party in various administrative proceedings, legal actions, environmental suits
and claims brought against the Agency. In the opinion of SBA management and legal
counsel, the ultimate resolution of these proceedings, actions, suits and claims will not
materially affect the financial position or results of SBA operations. The likelihood of
loss to SBA ranges from remote to a reasonably possible amount of $4.2 million. These
activities will be monitored and recognized if a loss becomes probable.

N.     Leave

A liability for employee annual leave is accrued as it is earned and reduced as leave is
taken. Each year the balance of accrued annual leave is adjusted to reflect current pay
rates as well as forfeited “use or lose” leave. To the extent current or prior year
appropriations are not available to fund annual leave earned but not taken, funding will
be obtained from future appropriations.

Sick leave and other types of non-vested leave are expensed as taken.


O.     Employee Health and Life Insurance Benefits

SBA employees are eligible to participate in the contributory Federal Employees Health
Benefit (FEHB) and the Federal Employees Group Life Insurance (FEGLI) programs.
SBA matches a portion of the employee contributions to each program. SBA’s matching
contributions are recognized as current operating expenses.


P.     Employee Pension Benefits
SBA employees participate in either the Civil Service Retirement System (CSRS) or the
Federal Employees' Retirement System (FERS). Most employees hired after December
31, 1983 are covered by FERS. These systems provide benefits upon retirement and in
the event of death, disability, or other termination of employment, and may also provide
pre-retirement benefits. They may also include benefits to survivors and dependents, and
they may contain early retirement or other special features. The CSRS and FERS
retirement funds are administered by the Office of Personnel Management (OPM).

For CSRS, SBA contributes 7.0% of the employee’s gross earnings in addition to the
7.0% withheld from the employee. For FERS, SBA withholds .8% of gross earnings and
matches the withholding with a 10.7% employer contribution. SBA contributions to
CSRS and FERS are recognized as current operating expenses. FERS participants are
also covered under the Federal Insurance Contribution Act (FICA) and are subject to
FICA withholdings. SBA makes matching contributions for FICA, which are recognized
as current operating expenses.

Federal employee benefits also include the Thrift Savings Plan (TSP) where CSRS
participants may contribute up to 9.0% of their gross pay to the TSP without any Agency
matching contribution. FERS participants may contribute up to 14% of their gross pay to
the TSP. For FERS participants, SBA contributes 1.0% of basic pay and matches any
employee contributions dollar for dollar for the first 3.0% of pay, and 50 cents on the
dollar for the next 2.0% of pay. The maximum limit that either FERS or CSRS
employees may contribute to the TSP is $13,000 annually. SBA contributions to the TSP
are recognized as current operating expenses.

SBA recognizes the full cost of providing future CSRS and FERS pension benefits at the
time the employees' services are rendered. The cost of pension benefits represents the
actuarial present value of future benefits attributed to services rendered by covered
employees during the accounting period, net of the amounts contributed by these
employees. In addition, OPM finances the excess of total pension expense over the
amount contributed by the Agency and its employees. SBA recognizes the amount
financed by OPM as current year operating expenses and an imputed financing source.
SBA does not report in its financial statements FERS or CSRS assets, accumulated plan
benefits or unfunded liabilities, if any, applicable to its employees.


Q.     Other Retirement Benefits

SBA employees eligible to participate in the FEHB and the FEGLI may continue to
participate in these programs after their retirement. SBA recognizes a current operating
expense for the future cost of these and Other Retirement Benefits (ORB) at the time the
employee's services are rendered. This ORB expense is financed by OPM; SBA
recognizes the amount financed by OPM as current year operating expense and an
imputed financing source.
R.     Revenues and Other Financing Sources

SBA’s revenues and other financing sources include appropriations used, earned revenue,
donations, imputed financing sources and non-expenditure transfers.

SBA receives the majority of the funding needed to support its operations through
congressional appropriations. The Agency receives one year, multi-year and no year
appropriations that may be used, within statutory limits, for operating and program
expenditures. Appropriations are considered used when goods or services financed by
an appropriation are provided, regardless of when paid. Appropriations received and
used are reported in the Consolidated Statement of Changes in Net Position.

Earned revenue results from exchange transactions that benefit both parties. SBA has
earned revenues such as interest on its loan portfolios and interest on fund balances.
These revenues are presented on the Consolidated Statement of Net Cost as reductions to
operating costs.

Donations are treated as non-exchange revenue and reported in the Consolidated
Statement of Changes in Net Position.

Imputed financing sources are operating costs of SBA which are paid through funds
appropriated to other Federal entities. These include items such as additional charges by
OPM for employee pension benefits and post-employment benefits for former
employees. The imputed financing source is reported in the Consolidated Statement of
Changes in Net Position while the associated cost is reflected in the Consolidated
Statement of Net Cost.

Non-expenditure transfers of appropriated amounts or assets without reimbursement
include items such as transfers to Treasury of downward subsidy reestimates and
unobligated balances from liquidating accounts. These transfers are included in the
Consolidated Statement of Changes in Net Position.

S.     Accounting Changes

SBA accrues interest receivable (and recognizes revenue) as of the report date for loans
not delinquent and loans delinquent less than 91 days. Prior to FY 2004, for Credit
Reform loans, SBA would record a deferral of accrued interest for loans delinquent 1 to
90 days in a deferred interest account, with a corresponding decrease in interest revenue.
This treatment was based on Federal accounting guidance provided years ago in a “case
study.” Per SBA’s review of the most recent case studies, there was not any justification
to continue this treatment. In FY 2004 SBA stopped deferring interest delinquent 1 to 90
days for Credit Reform loans and the prior year statements were restated.

SBA reports its costs consistent with the Agency’s goals. The strategic goals this year
were restructured from the strategic goals in the prior year. In FY 2004 Procurement
Assistance programs have been included in the economic environment goal and another
goal was added (Goal 4). As a result, the Statement of Net Cost for the current year is
not comparable to the prior year and the prior year costs are presented in summary
without the subtotals for the prior year strategic goals.
Note 2. Fund Balance with Treasury
       (Dollars in Thousands)

Fund Balances with Treasury at the end of FY 2004 and 2003 consisted of the following:


                                                   FY 2004                      FY 2003
Entity Fund Balances

       Trust Fund                                      $488                        $440
       Liquidating Funds                            174,936                     245,606
       Financing Funds                            6,271,977                   1,909,033
       Revolving Funds                               22,948                      22,978
       Appropriated Funds                           602,233                     620,620
          Total Fund Balance                     $7,072,582                  $2,798,677

Status of Fund Balances with Treasury

Unobligated Balance
       Available                                 $2,642,766                  $1,524,388
       Unavailable                                3,733,507                     660,519
Obligated Balance Not Yet Disbursed                 696,309                     613,770
          Total Fund Balance                     $7,072,582                  $2,798,677

Fund Balance with Treasury is an entity asset maintained with Treasury. The monies are
available to pay current liabilities and finance loan programs. SBA has the authority to
disburse funds through Treasury, which processes cash receipts and disbursements on the
Agency’s behalf.

Available unobligated balances represent amounts that are apportioned for obligation in
the current fiscal year. Unavailable unobligated balances represent amounts not
apportioned for obligation during the current fiscal year and expired appropriations no
longer available for new obligations. Obligated balances not yet disbursed include
reimbursements, other income earned, undelivered orders and expended authority-unpaid.

An immaterial difference exists between SBA’s recorded Fund Balances with Treasury
and Treasury’s records. Normally it is the Agency’s practice to adjust its records to agree
with Treasury’s balances at the end of the fiscal year. The adjustments are reversed at the
beginning of the following fiscal year.
Note 3. Cash
       (Dollars in Thousands)

Cash at the end of FY 2004 and 2003 consisted of the following:

Cash
                                     FY 2004                       FY 2003
                                    Entity Assets                 Entity Assets
   Cash in Transit                      $3,328                        $5,331
   Undeposited Collections              19,182
Total                                 $22,510                         $5,331

Undeposited collections are amounts under the control of the SBA at field offices. Cash
in Transit are collections held by SBA’s fiscal agents, such as lockboxes or Colson
Services, at the reporting date.
Note 4. Master Reserve Fund
The Small Business Secondary Market Improvement Act of 1984, P.L. 98-352
(Improvement Act) provided statutory authority for the 7(a) secondary market, the
pooling of 7(a) loans, the central registration of secondary market loans and improved
disclosure of 7(a) secondary market loans. The Improvement Act also provided for
SBA’s regulation of brokers and dealers operating in the 7(a) secondary market and for
reporting on secondary market results to Congress. The 7(a) secondary market has
approximately $14 billion of outstanding investments held by 7(a) secondary holders in
FY 2004 compared to $13 billion in FY 2003.

It was the intent of Congress in the Improvement Act that the 7(a) secondary market
pooling program operate at no cost to the Federal taxpayer. The Master Reserve Fund
(MRF), maintained by SBA’s fiscal agent as part of its administration of the 7(a)
secondary market program, was created to fulfill this intent. In order for the 7(a)
secondary market pooling program to have no cost to the Federal taxpayer, the
collections from the underlying loans and the earnings of the MRF must be adequate to
fund SBA’s guarantee of timely payment of principal and interest to the 7(a) secondary
market investors throughout the portfolio liquidation period and to pay expenses of the
MRF trustee and investment advisor. If the MRF is not sufficient, SBA is liable to
secondary market investors. With this in mind, in November 2002, SBA agreed with the
OMB to include the MRF under the requirements of the FCRA of 1990, beginning with
the FY 2005 budget. Since then, the program has been referred to as the Secondary
Market Guarantee Program (SMG Program). SBA also agreed to reestimate the cost of
the SMG Program annually beginning in FY 2003 (for the FY 2005 budget). SBA will
account for the SMG Program within its Business Loan Program and Business Guarantee
Financing Accounts, and will begin cohort accounting in FY 2005.

The secondary market program provides for the pooling of loans having terms that vary
within a range prescribed by SBA and the sale of the pools to secondary market
investors. The pool’s investments have fixed terms, equivalent to the term of the longest
loan in the pool. Various factors influence SMG adequacy, including the interest rate
paid to investors, the “spread” of maturities in the loan pools, the occurrence of loan
prepayments and delinquencies, the amount of interest earned on the float on monthly
loan payments and prepayments, the holdback of the principal portion of the first loan
payment, the pattern of liquidation of investments in 7(a) secondary market pools, and
the earnings rate on MRF short and long term investments. Approximately 30 percent of
the MRF is invested in short-term (6 month) Treasury securities and repurchase
agreements and 70 percent in long-term Treasury securities and Treasury-guaranteed
money market funds.

During FY 2004 and FY 2003, SBA conducted a thorough analysis of the SMG
adequacy. This analysis concluded the SMG will not be sufficient after 2017 to liquidate
the secondary market portfolio that existed at FY 2004 and FY 2003 yearend. Based on
this analysis, a subsidy of $189 million was needed to fully liquidate the portfolio as of
September 30, 2003. The analysis showed $123 million was attributed to FY 2002 and
prior years and $66 million was attributed to FY 2003 as restated. As of FY 2004
yearend, SBA estimates that a reduction in SMG subsidy of $4 million is appropriate to
properly value the SMG liability. SBA recognized these amounts as FY 2004 and FY
2003 subsidy expense on its Consolidated Statement of Net Costs and established a
liability for Secondary Market Guarantee on its FY 2004 and FY 2003 Consolidated
Balance Sheet. In addition the SBA recognized $4.6 million of interest on the FY 2003
reestimate as subsidy expense in FY 2004.

SBA expects to make changes to the 7(a) SMG Program which will provide additional
SMG income resulting in a zero subsidy rate. These include the pass-through of partial
prepayments and the principal portion of the first payment on new loans. These changes
will be effective with FY 2005 processing of new 7(a) pools for sale in the secondary
market. This will satisfy the Congressional intent that the program should not impose
any additional cost to the Federal taxpayers or liability on the government.

The composition of the MRF for FY 2004 and FY 2003 is shown in the following table.
A reconciliation of the change in MRF assets during FY 2004 and FY 2003 is also
shown.


                             Master Reserve Fund Assets
                               (Dollars in Thousands)

Short Term Securities                                        FY 2004        FY 2003
 Treasury Bills                                              $155,312       $155,616
 Repurchase Agreements                                        287,511        231,000
Total Short Term Securities                                  $442,823       $386,616

Long Term Securities
 Money Market Funds                                           $ 27,577       $26,848
 Treasury Bonds                                                184,961       123,719
 Treasury Notes                                                757,109       709,935
 Net Interest                                                   13,219        12,672
Total Long Term Securities                                   $ 982,866      $873,174

Net Assets                                                  $1,425,689    $1,259,790
                       Reconciliation of MRF Assets FY 2004
                               (Dollars in Thousands)

                                                       FY 2004      FY 2003
Beginning Net Assets                                 $1,259,790   $1,213,383
Receipts
Regular Loan Payments                                 1,296,744    1,219,237
Loan Prepayments                                      1,275,835      961,202
Payments Received to Cover Defaults                     535,900      564,800
Other Receipts                                                        (9,850)
Earned Income                                            55,064        55,246
Net Realized Gain (Loss)                                    309       (1,028)
 Total Receipts                                      $3,163,852   $2,789,607

Disbursements
Regular Payments to Investors                        $1,184,360   $1,215,445
Loan Prepayments                                      1,275,835      961,202
Defaults                                                535,900      564,800
Expenses                                                  1,858        1,753
 Total Disbursements                                 $2,997,953   $2,743,200

Ending Net Assets                                    $1,425,689   $1,259,790
Note 5. Accounts Receivable
   (Dollars in Thousands)

Accounts receivable are displayed by type and consisted of the following at the end of FY 2004 and
2003:

                                                 FY 2004                       Restated FY 2003
                                          Intra-         Public                Intra-       Public
                                      governmental                         governmental

Subsidy Receivable from Program       $2,114,474           $                $4,642,178        $
    Fund
Interest Receivable from Treasury                                               12,643
Other Interfund Receivables                                                     25,880
Overpayment to Secondary                                        1,747                                 401
Guarantee Fees Receivable                                      31,080                              26,702
Examination Fees – SBIC                                            76                                  76
Administrative Receivables                                         79                                  81
Refunds                                                         3,621                               4,288
Revenue Receivable                                              1,038                               1,587
Receivables Due from Lenders                                    1,786                               2,288
Receivable Due from Purchasers
    Asset Sales                                                   30                                     49
Reimbursable                                                                      1,687
    Sub Total Before Eliminations $2,114,474                $39,457         $4,682,388            $35,472
Eliminations –Subsidy Receivable     (2,114,474)                            (4,642,178)
Eliminations – Interfund Receivable                                            (27,560)
Balance Sheet Total                 $                       $39,457            $12,650            $35,472


Other interfund receivables result from adjustments to cash balances for individual year’s
appropriations in the Agency’s credit programs. SBA’s credit program appropriations are received on
an annual, multiyear and no-year basis, but the Agency’s loan accounting system does not separately
account for the use of these appropriation types as new loans and guarantees are processed.
Adjustments to general ledger cash balances are therefore made as part of the monthly accounting
cycle in order to properly record the use of annual, multi year and no-year appropriations. These
amounts are eliminated in the consolidated statements as the adjustments effect interagency fund
activity and balances.

SBA has determined uncollectible or unrecoverable accounts receivable are not significant and does
not provide an allowance. The historic immateriality of losses is due to stringent collection policies
and the ability to offset against the lender's share of collections, payments to employees or vendors.
Note 6. Credit Program Receivables and Related Foreclosed
        Property

A.     Loan Program Descriptions

The SBA operates the following loan and loan guarantee program funds:

       (1) Business, Direct
       (2) Disaster, Direct
       (3) Business, Guarantee
       (4) Pollution Control, Guarantee

SBA administers several loan guarantee and direct lending programs providing small
businesses with financial assistance not otherwise available in the financial markets.
Under its business loan guarantee programs, SBA guarantees loans made by banks and
other lending institutions to small businesses. These loan guarantee programs include the
7(a) General Business Loan Guarantee Program, the Section 504 Certified Development
Company Debentures Loan Guarantee Program, the Small Business Investment Company
Debentures and Participating Securities programs and the Microloan Guarantee Program.
The original Pollution Control Loan Guarantee Program ceased guaranteeing new loans
in 1988; since 1989, those loans have been guaranteed under the 7(a) Program.

SBA’s primary direct loan program is the Disaster Program, which makes direct loans to
disaster victims under five categories: (1) loans for homes and personal property, (2)
physical disaster loans to businesses of any size, (3) pre-mitigation disaster loans to
businesses, (4) economic injury loans to small businesses without credit available
elsewhere, and (5) economic injury loans to eligible businesses affected by essential
employees called up to active duty in the military reserves. The maximum interest rate is
4 percent for applicants without credit available elsewhere and 8 percent for applicants
with credit available elsewhere. The Microloan Program provides direct loans to
nonprofit intermediaries, who use these funds to make loans up to $35,000 to eligible
small businesses.

The FCRA requires all agencies budget for the credit subsidy cost of credit programs by
estimating net present value of cash flows discounted at the government’s cost of
borrowing. OMB Circular A-11 provides direction on the preparation of credit program
cost estimates. Loans originated during the same fiscal year are assigned to a “cohort”,
the credit subsidy cost of which is funded by appropriations for that year.

Using special data collection techniques and analyses, SBA analyzes loan, accounting
and other data to estimate the cash flows used in the calculation of the subsidy cost for
each program. SBA has created estimation models that incorporate actual and estimated
data on loan maturity, fees, grace periods, interest rate differentials, delinquencies,
default or purchase rates, recoveries, prepayments, borrower characteristics and
macroeconomic variables.

The credit subsidy rate is the credit subsidy cost expressed as a percent of the dollar
amount of loans expected to be disbursed or loan guarantees committed for that cohort
year. It consists of the sum of the components for the interest subsidy costs, default costs
(net of recoveries), fees and other offsetting collections and other costs. The credit
subsidy rate may be affected by actual and expected economic conditions, new
legislation, changes in credit origination and servicing practices, and particular estimation
methodologies and assumptions because it reflects anticipated loan performance for each
cohort in each program.

Direct loan obligations or loan guarantee commitments made after FY 1991 are governed
by FCRA and reported as credit reform loans. FCRA provides the credit subsidy cost,
equal to the credit subsidy rate multiplied by the loan disbursements, be recognized and
reported as an expense in the year in which the direct loans or loan guarantees are
disbursed. Subsidy costs are reestimated annually after disbursement. Reestimates that
increase subsidy expenses result in SBA receiving additional funds from the Treasury;
reestimates that decrease subsidy expenses result in SBA transferring funds to the
Treasury. For scheduling purposes, SBA may prepare these reestimates using
information available as of March 31, annualized to September 30.

Direct loan obligations and guarantee loan commitments made prior to FY 1992 are
reported as liquidating loans (i.e., pre-credit reform loans). The related credit program
receivables for direct and defaulted guaranteed loans are reported net of an allowance for
loan losses, which reflect estimates of what the Agency does not expect to collect or
recover. These allowances are unfunded. They are based upon historical experience,
current market conditions and, in some circumstances, an analysis of individual assets.
SBA establishes a 100% allowance for liquidating loans past due more than 180 days.

Interest receivable is comprised of accrued interest on accounts and loans receivable, and
purchased interest related to defaulted guaranteed loans. Interest income is accrued at the
contractual rate on the outstanding principal amount and is reduced by the amount of
interest income accrued to non-performing loans (those in excess of 90 days delinquent).
Purchased interest is carried at cost; however, a 100% loss allowance is established for all
purchased interest on non-performing liquidating loans.

Foreclosed property is comprised of real and business-related property acquired through
foreclosure on loans and defaulted loan guarantees. Property held in inventory is
appraised every year and reported at the appraised value.

Information pertaining to loans receivable, loan guarantees, liability for loan guarantees,
credit subsidy costs, and administrative costs associated with the loans and loan
guarantees is provided for liquidating and credit reform loans in the following sections.
B.      Direct Loans Obligated Prior to FY 1992
     (Dollars in Thousands)

Direct Liquidating Loans Receivables net are as follows:

                                           FY 2004

Liquidating Loan                          Business           Disaster          Total
Program

Loans Receivable, Gross                     $32,149          $42,674           $74,823
Interest Receivable                          12,951               339           13,290
Allowance for Loan Losses                  (15,385)           (5,082)         (20,467)
Foreclosed Property                           5,392                              5,392
Value of Assets Related
    to Direct Loans                        $35,107           $37,931          $73,038


C.      Direct Loans Obligated After FY 1991
     (Dollars in Thousands)

Direct Credit Reform Loans Receivables net are as follows:

                                           FY 2004

Credit Reform                             Business           Disaster      Total
Program

Loans Receivable, Gross                   $133,299         $3,037,809    $3,171,108
Interest Receivable                          1,532             18,241        19,773
Foreclosed Property                                               863           863
Allowance for Subsidy
    Cost (Present Value)                   (42,959)         (613,278)      (656,237)
Net Present Value of Assets
    Related to Direct Loans                $91,872         $2,443,635    $2,535,507


D.      Total Amount of Direct Loans Disbursed Post-1991
     (Dollars in Thousands)

Total Direct Credit Reform Loans disbursed by program in the current year and the prior year are
as follows:
                                            FY 2004                                 FY 2003
Credit Reform
Programs
(1) Business                                 $20,595                                 $23,123
(2) Disaster                                 465,152                                 686,149
       Total                                $485,747                                $709,272


Disaster program disbursements are extremely irregular due to the variability of disaster activity.
E.      Subsidy Expense for Direct Loans by Program and Component (Credit Reform
        Loans)
     (Dollars in Thousands)

Total credit subsidy expense consists of the credit subsidy expense of direct loans disbursed during the
year plus the reestimate of the credit subsidy cost. The following tables show total direct loan subsidy
expense by program and component for direct loans disbursed in FY 2004 and FY 2003 and for
reestimates of loans disbursed in prior years.

  Direct      Subsidy Expense for New Direct Loans Disbursed in           Reestimates        Total
  Loan                             FY 2004                                 FY 2004           Direct
 Program      Interest Defaults     Fees     Other     Total               Technical         Loan
                                                      Subsidy             Reestimate        Subsidy
                                                      Expense                               Expense
                                                                                            FY 2004
(1)Business    $ 2,233    $    55    $           $          $    2,288   $      27,935     $ 30,223
(2)Disaster    19,457       39,169     (283)       (504)      57,839            55,474       113,313
   Total      $21,690     $ 39,224   $ (283)     $ (504)    $ 60,127           $83,409     $ 143,536




  Direct      Subsidy Expense for New Direct Loans Disbursed in            Restated           Total
  Loan                             FY 2003                                Reestimates         Direct
 Program                                                                   FY 2003            Loan
               Interest   Defaults       Fees    Other        Total        Technical         Subsidy
                                                            Subsidy       Reestimate         Expense
                                                            Expense                          FY 2003
(1)Business    $ 2,281    $    74    $           $          $ 2,355      $       1,393     $     3,748
(2)Disaster     47,955     60,693     (6,711)      5,640      107,577          363,283         470,860
   Total       $50,236    $60,767    $(6,711)    $ 5,640    $ 109,932    $     364,676     $ 474,608
F.     Subsidy Rates for Direct Loans by Program and Component
       for the Current Year’s Cohorts
The Disaster loan program comprised the lion’s share of SBA’s direct loans approved and
disbursed in FY 2004. The cost of the Disaster direct loan program is affected by the original
terms of the loan, such as below-market interest rates, grace periods and average loan size, as well
as deviations from the original terms caused by estimated prepayments, defaults, delinquencies,
charge-offs, and recoveries. The Disaster loan default rate is 8.56% of dollars disbursed and
recoveries are expected to be 39.0% of the default dollars.


                                             FY 2004

                       Interest
Loan Program          Differential       Defaults              Fees            Other        Total
(1) Business                9.34%          0.21%             0.00%             0.00%        9.55%
(2) Disaster                3.29%          8.56%             0.00%           (0.13%)       11.72%
G.      Schedule for Reconciling Subsidy Cost Allowance Balances
     (Dollars in Thousands)

The following reconciles the subsidy cost allowance for direct loans and loan guarantees.

                               (Post-1991 Direct Business)         (Post-1991 Direct Disaster)
                                                Restated                            Restated
                                 FY 2004         FY 2003             FY 2004         FY 2003
Beginning Balance of the
   Subsidy Cost Allowance         $14,504          $12,493           $630,907         $446,318
Add: Current Year Subsidy
       Expense by Component
   Interest Rate Differential Cost 2,233              2,281            19,457           47,955
   Default Costs                       55                74            39,169           60,693
       (Net of Recoveries)
   Fees and Other Collections                                            (283)          (6,711)
   Other Subsidy Costs                                                   (504)            5,640
Total of the Above Subsidy
   Expense Components               2,288             2,355            57,839          107,577

Adjustments:
   Loans Written Off               (106)              (331)           (53,441)       (143,195)
Subsidy Allowance
   Amortization                  (1,663)            (3,662)           (77,500)       (152,180)
Other Adjustments:
Deferred Interest Adjustment                          1,181                                 5,837
Restatement Subsidy
   Prior Period Adjustment                            1,075                                 3,267
Balance of the Subsidy Cost
   Allowance Before Reestimates 15,023              13,111            557,805          267,624
Add or Subtract Subsidy
   Reestimates by Component:
   (a) Interest Rate Reestimate
   (b) Technical/default
           Reestimate            27,935               1,393            55,474          363,283
Total of the Above Reestimate
          Components             27,935               1,393            55,474          363,283
Ending Balance of the Subsidy
   Cost Allowance               $42,958            $14,504           $613,279         $630,907
                                    (Post – 1991 Guarantee Business)
                                                      Restated
                                      FY 2004         FY 2003
Beginning Balance of the Subsidy
   Cost Allowance                   $1,791,958        $526,444
     Adjustment Related to the
     Purchase of Guaranteed Loans    1,054,774        1,265,514
Ending Balance of the Subsidy
     Cost Allowance Before
     Reestimates                    $2,846,732       $1,791,958
H.      Defaulted Guaranteed Loans from Pre-1992 Guarantees
     (Dollars in Thousands)

The Liquidating Loan Guarantee Receivables net consist of the following:

                                       FY 2004
Liquidating Loan
Guarantee Programs:                 Business              Pollution          Total

Defaulted Guaranteed
    Loans Receivable Gross            $199,753             $48,232           $247,985
Interest Receivable                     (2,366)                 459            (1,907)
Allowance for Loan Losses              (61,268)            (32,598)           (93,866)
Foreclosed Property                         825                                    825
Defaulted Guaranteed
    Loans Receivable, Net             $136,944             $16,093           $153,037




I.      Defaulted Guaranteed Loans from Post-1991 Guarantees
     (Dollars in Thousands)

The Credit Reform Loan Guarantee Receivables net consist of the following:

                                    FY 2004

Credit Reform Loan
Guarantee Program                   Business

Defaulted Guaranteed
    Loans Receivable, Gross         $2,925,127
Advances                               554,977
Interest Receivable                     11,996
Foreclosed Property                      6,294
Allowance for Subsidy Cost
    (Present Value)                (2,846,732)
Net Present Value of Assets
    Related to Defaulted
    Guaranteed Loans
    Receivable                        $651,662
J.      Credit Program Receivables and Related Foreclosed Property
     (Dollars in Thousands)

The following is a Summary of Notes 6B, 6C, 6H and 6I for the current FY:

                                                                             FY 2004
     Direct Loans Obligated Prior to FY 1992                                  $73,038
     Direct Loans Obligated After FY 1991                                   2,535,507
     Defaulted Guaranteed Loans from Pre-1992 Guarantees                      153,037
     Defaulted Guaranteed Loans from Post 1991 Guarantees                     651,662

     Credit Program Receivables and Related Foreclosed Property          $3,413,244


The FY 2004 foreclosed property referred to in Parts B, C, H, and I is comprised of $13
million of real estate on 48 loans and $418 thousand of other property on 10 loans. The
average number of days the foreclosed property was held by the SBA was 723 days. For
FY 2003 there was $19.9 million of real estate outstanding on 65 loans and $1.2 million
of other property outstanding on 18 loans.
K.      Guaranteed Loans
     (Dollars in Thousands)

The SBA maintains records of the amount of guaranteed loans outstanding as of the reporting
date. The amount of SBA’s 7(a) guaranteed loans outstanding, however, is obtained from
reports submitted by participating lenders as of the end of the prior month (August 2004). The
amount of 7(a) guarantees reported is $49.6 billion of the total guarantees of $67.5 billion at
September 30, 2004. Guaranteed loans outstanding and the share guaranteed by SBA follow:

     Guaranteed Loans Outstanding
                                                                   FY 2004
Loan Programs                                       Business       Pollution      Total

Outstanding Principal, Guaranteed
   Loans Receivable, Face Value                   $67,493,467        5,803       $67,499,270
Amount of Outstanding Principal
   Guaranteed by SBA                              $56,441,604        5,803       $56,447,407


                                                             Restated FY 2003
Loan Programs                                       Business      Pollution   Total

Outstanding Principal, Guaranteed
   Loans Receivable, Face Value                  $63,641,745       9,874         $63,651,619
Amount of Outstanding Principal
   Guaranteed by SBA                             $53,376,310       9,874         $53,386,184


Guaranteed loans disbursed and the share guaranteed by SBA follows:

     New Guarantee Loans Disbursed
                                                    FY 2004                         FY 2003
                                                    Business                        Business

Outstanding Disbursed Principal, Guaranteed
   Loans Receivable, Face Value                  $15,267,177                     $13,182,813
Amount of Outstanding Disbursed Principal
   Guaranteed by SBA                             $12,128,578                     $10,493,400
L.      Liability for Loan Guarantees:
     (Dollars in Thousands)

The liability for post-1991 loan guarantees represents the present value of future estimated cash
outflows from SBA, net of inflows, such as fees.

The liability for pre-1992 loan guarantees represents the estimated loss for loans that are
projected to default.

                                                            Business Loan Programs
                                                                                Restated
                                                        FY 2004                  FY 2003


Liabilities for Loan Guarantees for
Pre-1992 Guarantees                                       $6,324                         $5,465

Liabilities for Loan Guarantees for
Post-1991 Guarantees (Present Value)                  $2,517,728                    $2,536,065

Total Liabilities for Loan Guarantees                 $2,524,052                    $2,541,530
M.      Subsidy Expense for Post-1991 Loan Guarantees by Program and
        Component
     (Dollars in Thousands)

Total credit subsidy expense consists of the credit subsidy expense of guaranteed loans disbursed
during the year plus the reestimate of the credit subsidy cost of guaranteed loans committed and
disbursed in prior years. The following tables show total loan guarantee subsidy expense by program
and component for guarantee loans disbursed in FY 2004 and FY 2003 and for reestimates of
guaranteed loans committed in prior years.


Loan                Subsidy Expense for New Loan             Reestimates    Total Loan
Guarantee          Guarantees Disbursed in FY 2004            FY 2004       Guarantee
Program        Defaults     Fees      Other     Total         Technical      Subsidy
                                               Subsidy       Reestimate      Expense
                                               Expense                       FY 2004
Business       $420,817 $(309,146) $(5,077) $106,594         $744,547       $ 851,141




  Loan              Subsidy Expense for New Loan             Restated       Total Loan
Guarantee          Guarantees Disbursed in FY 2003          Reestimates     Guarantee
Program                                                      FY 2003         Subsidy
               Defaults       Fees     Other Total           Technical       Expense
                                            Subsidy         Reestimate       FY 2003
                                            Expense
 Business      $398,266 $(275,806) $(8,644) $113,816         $2,551,215     $ 2,665,031
N.     Subsidy Rates for Loan Guarantees by Program and Component
       Budget Subsidy Rates for Loan Guarantee for the Current Year’s
       Cohorts
The following table shows the credit subsidy rates by component and by program for loan
guarantees committed in the FY 2004 cohort.

The subsidy rate for the several 7(a) programs is principally affected by estimated fees, defaults
or purchases, and recoveries. The annual fee was raised and other program changes were made
on April 5, 2004, which lowered the subsidy rate for the program for the remainder of the year.

In 2001 legislation was enacted allowing the fee on the SBIC Participating Securities program
and the SBIC Debentures program to adjust every year in order to reach a subsidy rate of zero.
Once established, these fees remain the same for the life of each cohort. In the SBIC
Participating Securities program, SBA pays the interest to the holders of securities during the
term of the security.

Per OMB requirements, subsidy rates are established during the budget formulation period which
is about one year prior to budget execution. Subsequent information that may impact the
estimates, such as changes in forecast defaults and recoveries, is incorporated through the
reestimate process. Since the establishment of the FY 2004 subsidy rates at the end of FY 2002,
SBA has substantially revised its expectations for defaults, recoveries, and other cash flows for
the SBIC Participating Securities program. Therefore, the reestimated subsidy rate for the FY
2004 cohort is substantially higher than the execution rate shown below. Each year SBA will
continue to update its subsidy cost estimates by incorporating actual program performance and
the latest available forecast information.


                                             FY 2004

 Loan Guarantee                Interest        Defaults       Fees        Other         Total
 Program                     Supplements
 Business
 7(a)                                             3.46%      (2.40%)                       1.06%
 7(a) (eff. 04/05/04)                             3.44%      (2.86%)                       0.58%
 7(a) NAFTA (CAIP)                                3.46%      (2.40%)                       1.06%
 7(a) Star                                        3.46%      (2.40%)                       1.06%
 7(a) Delta                                       3.96%      (2.40%)                       1.56%
 504 Debentures                                   2.54%      (5.53%)        2.99%          0.00%
 504 Delta                                        2.92%      (5.50%)        3.44%          0.86%
 SBIC Debentures                                  9.60%      (3.08%)      (6.52%)          0.00%
 SBIC Participating
     Securities Program                           6.82%      (3.07%)      (3.75%)          0.00%
 SBIC New Markets                                16.05%                     0.00%         16.05%
 Microloan                                        1.87%                     6.79%          8.66%
O.      Schedule for Reconciling Loan Guarantee Liability Balances
        (Post – 1991 Business Loan Guarantees)
     (Dollars in Thousands)

The following reconciles the liability for Credit Reform Loan Guarantees:

                                                                              Restated
                                                         FY 2004              FY 2003
Beginning Balance of the Loan Guarantee Liability     $2,536,065            $1,233,403
Add: Subsidy Expense for Guarantee Loans
Disbursed During the Reporting Years by
Component:
   Default Costs (net of recoveries)                      420,817               398,266
   Fees and Other Collections                           (309,146)             (275,806)
   Other Subsidy Costs                                     (5,077)               (8,644)
Total of the Above Subsidy Expense Components             106,594               113,816
   Loans Written Off                                    (413,074)             (521,742)
   Amortization of Subsidy                                592,323               576,762
   Restatement Subsidy                                                        (175,937)
Adjustment Related to the Purchase of Guarantee Loans (1,054,773)           (1,265,515)
Deferred Interest Accounting Adjustment                                           25,178
   Other                                                     6,046               (1,115)
Ending Balance of the Loan Guarantee Liability
   Before Reestimates                                   1,773,181              (15,150)
Add or Subtract Subsidy Reestimate by Component:
   Technical / Default Reestimate                         744,547            2,551,215
Ending Balance of the Loan Guarantee Liability        $2,517,728            $2,536,065
P.      Administrative Expense
     (Dollars in Thousands)

Administrative expenses for direct business and disaster loans, and business loan
guarantees are as follows:
                                        FY 2004
    Direct Loan                                     Loan Guarantee
     Programs                Total                        Program                Total
(1) Business                $26,073                   (1) Business              $104,291
(2) Disaster                124,425
    Total                  $150,498
Q.     Other Information

For pre-1992 business loans, SBA’s share of outstanding gross amounts guaranteed is
$466.9 million of $531.2 million for the current year and $653.7 million of $742.5
million for the prior year. For Pollution Control Equipment Contract Guarantee Fund,
the outstanding guarantees total $5.8 million for the current year and $9.9 million for the
prior year. This amount is both gross and Agency share. For post-1991 loans, the gross
amount guaranteed for business loans is $66.9 billion for the current year and $62.9
billion for the prior year. The Agency’s share is $55.9 billion for the current year and
$52.7 billion for the prior year.

The SBA has outstanding loan commitments of $15.4 billion for the current year, and
$10.5 billion for the prior year end. These figures are comprised entirely of post-1991
commitments.
R.     Credit Program Subsidy Reestimates
The purpose of credit subsidy reestimates is to match the net resources for each loan
cohort in the financing account with the remaining discounted expected cash flows of
that cohort. Credit subsidy reestimates result from: (1) variations between actual and
estimated cash flows during the year, including prepayments, defaults or purchases,
and recoveries; (2) changes in expectations about future cash flows; (3) changes in the
estimated discount rate; and (4) changes in the financial modeling techniques used to
approximate the expected performance of a loan cohort. In addition, reestimates may
be affected by the approach used to develop them.

OMB Circular A-11, which guides the credit subsidy reestimate process, authorizes
agencies to use either the “traditional approach” or the “balances approach” to
reestimates. The traditional approach bases reestimates on both actual past and
estimated future loan cash flows, whereas the balances approach compares the
balances of resources in the financing account (cash, other assets and liabilities) with
estimated future loan cash flows to assess whether resources are insufficient
(requiring an upward reestimate) or in excess (requiring a downward reestimate).
Thus the balances approach goes one step beyond the traditional approach by
incorporating cohort-level account balance, in addition to loan-level transactional
data, directly into the reestimate calculation. The SBA has historically used the
traditional approach to develop credit subsidy reestimates. This year, SBA used the
balances approach to prepare the FY 2004 reestimates and restate the FY 2003
reestimates.

Both reestimate approaches will yield similar results, so long as the balance of
resources in each program cohort is consistent with actual past loan cash flows for
that program cohort, including Treasury interest, and all assumptions in the subsidy
models match the actual transactions in the account. For many of SBA’s earlier
cohorts, however, the balance of resources was not consistent with past activity, due
to incorrect recordation of transactions across sub-programs in the early years of
credit reform. For these cohorts, the balances approach reestimates have adjusted the
balance of resources to correct for these past recordation errors. These recordation
errors affected the recording of activity at the sub-program and cohort level only; they
did not affect the recording of activity at the loan transaction level or the fund level.

The balances approach also corrected for discrepancies in the interest transactions
with Treasury that affected the fund level. Unlike the traditional approach, the
balances approach adjusts for differences between estimated and actual interest paid
to or earned from Treasury.

Because the reestimate approach has changed since last year and eliminates previous
discrepancies that affected the fund level, the FY 2003 financial statements have been
restated for the revised reestimates.

Guarantee Loan Programs

The following table shows the credit subsidy reestimates for SBA’s guaranteed loans
by program in FY 2004 and as restated in FY 2003.
                 Guaranteed Loan Programs Subsidy Reestimates
 (Dollars in Thousands)


Guaranteed Loan Programs              2004 Reestimates            2003 Reestimates
                                                                      Restated
7(a)                                                 $41,413                 $344,317
7(a) STAR                                               (130)                 (30,905)
504 Debentures                                     (112,278)                   132,510
SBIC Debentures                                        56,521                   41,077
SBIC Participating Securities                        718,953                1,978,701
Secondary Market Guarantees                           (4,287)                  188,863
                         Total                      $700,192               $2,654,563

 The largest reestimate in FY 2004 and FY 2003 was for the SBIC Participating
 Securities Program. This program provides equity financing to the venture capital
 industry, which has experienced a substantial economic downturn in recent years.
 The downturn has increased actual and expected defaults and reduced actual and
 expected recoveries in this program. The SBIC Debentures Program, which finances
 less risky subordinated debt to the venture capital industry, was also impacted by the
 downturn in this industry but to a lesser extent. FY 2003 results have been restated
 for the revised reestimates using these revised assumptions with the balances
 approach.

 The reestimate in the 7(a) Program reflects program changes as well as a model
 correction, which increased the estimated purchase of accrued interest net of
 recoveries. This new model was used for both the FY 2004 and the restated FY 2003
 reestimates with the balances approach. The continued growth in the volume of SBA
 7(a) Express loans, which have a lower default risk, is the primary program change
 that also impacted the FY 2004 and FY 2003 reestimates restated.

 In FY 2004 SBA created a new econometric model for estimating and reestimating
 subsidy costs in the 504 Debentures Program. It also increased the estimated recovery
 rate for this program. This new model was used for both the FY 2004 and the
 restated FY 2003 reestimates with the balances approach.

 The reestimate for the Secondary Market Guarantee Program is primarily affected by
 differences in the actual versus the estimated spread between the Treasury Rates and
 the prime rate. The FY 2003 reestimate has been restated using a revised model that
 more accurately reflects estimated short-term interest earnings. Both the FY 2004 and
 the restated FY 2003 reestimates used the balances approach.

 Direct Loan Programs

 The following table shows the credit subsidy reestimates for SBA’s Disaster Loan
 Programs in FY 2004 and as restated in FY 2003.
                   Disaster Direct Loan Subsidy Reestimates
   (Dollars in Thousands)


                   Direct Loan          2004        2003
                   Programs          Reestimates Reestimates
                                                  Restated
                   Disaster              $62,001  $1,205,946
                   Disaster - WTCP      (19,296)
                               Total     $42,705  $1,205,946

In FY 2003 SBA implemented a new micro-simulation model to reestimate the
subsidy cost of its Disaster Loan Program. In addition, SBA separately modeled the
World Trade Center Program (WTCP) Disaster loans and regular Disaster Assistance
loans to account for substantial differences in the terms under which loans were made.

The FY 2003 restatement includes updated reestimates for all cohorts of regular
Disaster Assistance loans, mainly for the effect of model changes on loan activity
prior to FY 2004. FY 2003 reestimates were not made for the WTCP loans; an FY
2003 restatement was not prepared because that model has not changed since last
year.

The FY 2004 reestimates show the effect of activity in FY 2004. For Regular
Disaster Assistance loans, the total amount of reestimates is due mainly to the initial
reestimate of the FY 2003 cohort and a correction for the interest charged during FY
2002 and FY 2003. The interest correction is to reimburse Regular Disaster for
interest that should have been charged to WTCP and to adjust the interest rate used in
disbursement of the FY 2002 Regular Disaster cohort. For WTCP loans, reestimates
of the 2002 and 2003 cohorts were made for the first time in FY 2004. FY 2004
reestimates do not include the FY 2004 cohort because sufficient data about the loan
characteristics was not available at the time reestimates were made. Disaster loan
installment repayment is deferred six months after disbursement, resulting in a lack of
repayment activity for the current year cohort. WTCP reestimates also include a
correction for the interest not charged during FY 2002 and FY 2003 (that was
improperly charged to Regular Disaster), and also to adjust the interest rate used in
disbursement of the FY 2002 WTCP cohort.

Reestimates for these programs used the balances approach.
S.     Loan Asset Sales

From FY 1999 to FY 2003 SBA completed seven loan asset sales. An additional sale (Sale #8)
was planned but was subsequently cancelled. Disaster, 7(a), 504, and other loans were sold over
the course of the program. Through the completion of Asset Sale #7 in early FY 2003, SBA’s
cost models showed that the asset sales resulted in a net gain to the government. However,
during FY 2003, SBA determined that its previous estimation methodology was not accurate. A
new loan sale model was developed, which found Asset Sale #7 resulted in an estimated loss to
the government of $81 million. The new model showed that SBA had incurred losses on its
previous six loan sales as well. Based on these findings, Asset Sale #8 was cancelled, but $17
million in expenses had already been incurred. These expenses were applied as a reduction in
proceeds on Asset Sale #7. No asset sales have been planned or executed since Sale #8 was
cancelled.

                                   Gain/Loss by Asset Sale
                                        In FY 2003
                                    (Dollars in Millions)
                                       Sale 7     Sale 8      FY
                                       Dec-02   (expenses)   2003
                                                             Total
                            7a           $(7)        $(1)      $(8)
                            Disaster     (79)        (15)      (94)
                            504             5         (1)         4
                            Total       $(81)       $(17)     $(98)
Note 7. Equipment and Internal Use Software
       (Dollars in Thousands)

Capitalized Internal Use Software consisted of the following at the end of FY 2004 and
2003:

                                         FY 2004

                                                                                Net
    Major Classes                              Cost       Amortization       Book Value
Internal Use Software in Development         $18,829       $                  $18,829
Internal Use Software                          9,573         (8,613)              960
    Total                                    $28,402       $(8,613)           $19,789


                                         FY 2003

                                                                                Net
    Major Classes                              Cost       Amortization       Book Value
Internal Use Software in Development          $4,870       $                   $4,870
Internal Use Software                          9,191         (5,539)            3,652
    Total                                    $14,061       $(5,539)            $8,522


Statement of Federal Financial Accounting Standard No. 6 defines property, plant and
equipment (PP&E) as tangible assets that (1) have an estimated useful life of 2 or more
years, (2) are not intended for sale in the ordinary course of the business, and (3) are
intended to be used or available for use by the entity.

The SBA has established an individual item threshold amount of $50,000 for PP&E. The
SBA does not own any PP&E that meets this capitalization threshold.

The SBA does not have any restrictions on the use of its capitalized internal use software.
The SBA’s threshold for internal use software capitalization is $250,000 per item with a
useful life of more than 2 years.
Note 8. Advances
       (Dollars in Thousands)

Advances consisted of the following at the end of FY 2004 and 2003:


                                         FY 2004                      FY 2003
                                    Intragovernmental            Intragovernmental


Advances to Salary & Expense Fund         $34,115                      $49,476
Eliminations                              (34,115)                    (49,476)
 Balance Sheet Total                      $                            $


Advances from program funds are used to reimburse Salaries and Expenses as they are
incurred. These advances from the Business and Disaster Program funds are offset by
similar amounts in the Salaries and Expense Fund. These amounts are eliminated in the
preparation of consolidated statements.

In FY 2003 SBA reclassified amounts previously considered advances to credit program
receivables. These include Advances to Federal Financing Bank - Section 503 Debentures,
Advances to Holders of Delinquent Payments - Section 504 Debentures, Advances to
Private Investors - Small Business Investment Company (SBIC) Debentures, Advances to
Receivers - SBIC Debentures and Loans and Advances Outstanding - SBIC Participating
Securities.
Note 9. Liabilities Not Covered by Budgetary Resources
       (Dollars in Thousands)

Liabilities not covered by Budgetary Resources at the end of FY 2004 and 2003 consisted
of the following:

                                                                               Restated
Intragovernmental Liabilities, not Covered             FY 2004                 FY 2003
   by Budgetary Resources
   Other
        Unfunded FECA Liability (Note 13)               $5,488                    $5,707
   Total Intragovernmental                              $5,488                    $5,707


Other Liabilities – Public, Not Covered
   by Budgetary Resources

   FECA Actuarial Liability (Note 13)                 $28,436                   $31,822
   Other
        Prior Liens on Real Estate (Note 14)              $186                   $1,708
        Accrued Unfunded Annual Leave                   21,326                   21,894
        Surety Bond Guarantees                          20,032                   19,154
        Contingent Liability                                                        800
   Total Other                                        $41,544                   $43,556

Total Other Liabilities – Public, Not Covered
   By Budgetary Resources                             $69,980                   $75,378

The liability for Prior Liens on Real Estate is attributable to acquired collateral in the
Business Loan and Investment and Disaster Loan Funds

The liability for Surety Bond Guarantees is an estimate of the requirement for future
claims in the SBG Program for guarantees outstanding at year end.
Note 10. Accounts Payable
   (Dollars in Thousands)

Accounts Payable, displayed by type, consisted of the following at the end of FY 2004 and 2003:

                                                     FY 2004                 Restated FY 2003
                                      Intra-                               Intra-
                                     governmental           Public        governmental      Public

Disbursements in Transit               $                    $6,893                $23         $11,750
Accrued Interest Payable                   10,297                              13,700
Subsidy Payable to Financing            2,114,474                           4,642,178
Other Interfund Payables                                                       27,560
Refunds Due Borrowers                                          222                                388
Due Subcontractors                                             160                                565
Due Lenders                                                 14,519                             15,578
Miscellaneous Payable                                       12,100                 16          21,367
   Sub Total Before Eliminations       $2,124,771          $33,894         $4,683,477         $49,648
Eliminations – Subsidy Payable        (2,114,474)                         (4,642,178)
Eliminations – Interfund Payables                                            (27,560)
   Balance Sheet Total                     $10,297         $33,894            $13,739         $49,648

Other interfund payables result from adjustments to cash balances for individual year’s appropriations
in the Agency’s credit programs. SBA’s credit program appropriations are received on an annual,
multiyear and no-year basis, but the Agency’s loan accounting system does not separately account for
the use of these appropriation types as new loans and guarantees are processed. Adjustments to
general ledger cash balances are therefore made as part of the monthly accounting cycle in order to
properly record the use of annual, multi year and no-year appropriations. These amounts are
eliminated in the consolidated statements as the adjustments effect intra-agency fund activity and
balances.
Note 11. Debt
       (Dollars in Thousands)

Treasury and Federal Financing Bank intragovernmental debt consisted of the following at the
end of FY 2004 and 2003:

                                                    FY 2004
                                             Intragovernmental Debt

                                                                              Total
                                                       Federal           Intragovernmental
                                   Treasury         Financing Bank            Debt

Beginning Balance                  $6,626,749             $79,630          $6,706,379
New Borrowings                      2,203,099                               2,203,099
Repayments                          (284,147)            (20,740)           (304,887)
Change in Interest Payable                                  (617)               (617)
   Ending Balance                  $8,545,701            $58,273           $8,603,974



                                                    FY 2003
                                             Intragovernmental Debt

                                                                              Total
                                                       Federal           Intragovernmental
                                   Treasury         Financing Bank            Debt

Beginning Balance                 $11,035,897           $105,487          $11,141,384
New Borrowings                       1,158,196                               1,158,196
Repayments                         (5,567,308)           (25,106)          (5,592,414)
Change in Interest Payable                (36)              (751)                (787)
   Ending Balance                   $6,626,749           $79,630           $6,706,379


Interest payable on debt and receivable on uninvested funds held at Treasury (net) is included in
the beginning and ending balances of debt outstanding. The change in net interest payable is
shown to obtain the ending debt balance.

Repayment of Treasury borrowings was deferred until 2005 for the Disaster and Business
Guarantee funds.
Note 12. Net Assets of Liquidating Funds Due to Treasury
       (Dollars in Thousands)

The Net Assets of Liquidating Funds Due to Treasury consisted of the following at the
end of FY 2004 and 2003:

                                                                             Restated
                                                  FY 2004                    FY 2003
Liquidating Funds

       Pollution Control Equipment
        Contract Guarantee Fund                   $19,425                     $19,330
       Disaster Loan Fund                          98,713                     105,614
       Business Loan and Investment Fund          181,378                     282,165

           Total Due Treasury                    $299,516                    $407,109


Net Assets of Liquidating Funds Due to Treasury are funds returned to Treasury
comprised of net assets less liabilities. For FY 2003 the amount due Treasury was
included as “Other – Intragovernmental Liabilities” however for FY 2004 SBA is
showing the amount as a separate item on the Balance Sheet.
Note 13. Federal Employee Compensation Act (FECA)
    Actuarial Liability
The Federal Employees Compensation Act (FECA) provides income and medical cost
protection to covered Federal civilian employees injured on the job, to employees who
have incurred work-related occupational diseases, and to beneficiaries of employees
whose deaths are attributable to job-related injuries or occupational diseases. The FECA
program is administered by the U.S. Department of Labor (Labor), which pays valid
claims and subsequently seeks reimbursement from the Agency for these paid claims.

The FECA liability consists of two components. The first component is based on actual
claims paid by Labor but not yet reimbursed by the Agency. There is generally a two to
three year time period between payment by Labor and reimbursement to Labor by the
Agency. As a result, the Agency accrues an expense and recognizes a liability for the
actual claims paid by Labor that have not been reimbursed by the Agency.

The second component is the estimated actuarial liability for future benefit payments as a
result of past events. This liability includes death, disability, medical and miscellaneous
costs. Labor determines this component annually, as of September 30, using a method
that considers historical benefit payment patterns and a number of economic variables.
The projected annual benefit payments are discounted to present value using OMB’s
economic assumptions including the effects of inflation on the liability. Finally, Labor
evaluates the estimated projections to ensure that they are consistent with historical
payment patterns and the prior projection of the liability. The FY 2004 liability is $28.4
million and the FY 2003 liability was $31.8 million.
Note 14. Other Liabilities
   (Dollars in Thousands)

Other liabilities consisted of the following at the end of FY 2004 and 2003:
……
                                                                     FY 2004
                                                    Non-Current       Current       Total
                                                      Liabilities    Liabilities   Liabilities
1. Intragovernmental Liabilities-Other
   Payable to Special Receipt Fund                  $                  $556,249     $556,249
   Employment Taxes Payable                                                1,248        1,248
   Unfunded FECA Liability                                 5,488                        5,488
   Due Federal Financing Bank                              1,575                        1,575
   Advances from Other Agencies                                            2,513        2,513
   Advances from Program Funds                                            34,115       34,115
Sub Total before Eliminations                             $7,063       $594,125     $601,188
   Eliminations                                                         (34,115)     (34,115)
Total Intragovernmental Liabilities – Other               $7,063       $560,010     $567,073

2. Public Liabilities – Other
   Accrued Funded Payroll Benefits                   $                 $11,192       $11,192
   Accrued Grants                                                       46,520        46,520
   Accrued Unfunded Annual Leave                                        21,326        21,326
   Suspense Accounts                                                     3,359         3,359
   Prior Liens on Real Estate                             186                            186
   Contingent Liabilities-Public                       20,032                         20,032
Total Other Liabilities – Other                       $20,218          $82,397      $102,615



                                                              Restated FY 2003
                                                 Non-Current        Current     Total
                                                  Liabilities      Liabilities Liabilities
1. Intragovernmental Liabilities – Other
    Payable to Special Receipt Fund                      $            $642,596      $642,596
    Employment Taxes Payable                                               196            196
    Unfunded FECA Liability                                  5,707                      5,707
    Due Federal Financing Bank                               1,855                      1,855
    Advances from Other Agencies                                          1,945         1,945
    Advances from Program Fund                                           49,476        49,476
Sub Total before Eliminations                            $7,562       $694,213      $701,775
    Eliminations                                                       (49,476)      (49,476)
Total Intragovernmental Liabilities – Other              $7,562       $644,737      $652,299
                                                  Non-Current         Current        Total
                                                   Liabilities       Liabilities    Liabilities
2. Public Liabilities – Other
    Accrued Funded Payroll Benefits                   $                   $8,909         $8,909
    Accrued Grants                                                        39,700         39,700
    Accrued Unfunded Annual Leave                                         21,894         21,894
    Employment Taxes Payable                                               2,244          2,244
    Advances From Others                                                     502            502
    Cash Adjustments                                                      18,178         18,178
    Suspense Accounts                                                    (4,998)        (4,998)
    Prior Liens on Real Estate                             1,708                          1,708
    Surety Bond Guarantee Future Claims                   19,154                         19,154
    Contingent Liabilities                                                  800             800
Total Public Liabilities – Other                       $20,862          $87,229       $108,091


The payable to special receipt fund is related to downward subsidy restatements.

Other liabilities include current liabilities for contractual services and grants, contingent
liabilities, and the liability for accrued unfunded annual leave. Additionally, the non-current
liabilities include unfunded accrued FECA.

The SBA has recorded a non-current contingent liability for future claims in its Surety Bond
Guarantee Program in the amount of $20.0 million for FY 2004 and $19.2 million for FY
2003. This liability is an estimate of the future claims for outstanding contracts as of the
reporting dates.
Note 15. Statement of Net Cost
Federal cost accounting standards require SBA to report operating costs by program activity. Full costs
include all direct and indirect costs for a program. Full costs are reduced by exchange (earned) revenues
to arrive at net operating cost.

1. Operating Cost

The full and net operating costs of SBA's major programs are presented in the Consolidated Statement of
Net Cost. Full program costs are comprised of all direct costs for the program and those indirect costs
which can be reasonably assigned or allocated to the program, including employee pension and other
retirement benefit costs paid by OPM and charged to SBA.

2. Earned Revenue

Earned revenues arise from exchange transactions which occur through the provision of goods and
services for a price, and are deducted from the full cost of SBA's major programs to arrive at net program
cost. Earned revenues are recognized by SBA when reimbursements are payable from other Federal
agencies and from the public, as a result of costs incurred or services performed on their behalf. A major
source of earned revenue includes interest earned on SBA's outstanding Business and Disaster loan
portfolios and interest earned on uninvested funds in the credit reform financing account.

3. Reporting by Goals

SBA reports its costs consistent with the Agency’s strategic goals. The strategic goals this year were
restructured from those of the prior year. In FY 2004 Procurement Assistance programs are not included
in Goal 1 Improve Economic Environment. Because of this restructuring, the Statement of Net Cost for
the current year is not comparable to the prior year. Thus, the cost for FY 2003 is presented in summary
without the subtotals matching to the current year goals.

For FY 2004, SBA developed a new strategic Goal 4 – “Ensure that SBA programs operate at maximum
efficiency and effectiveness by providing them with high quality executive leadership.” The costs of this
goal, however, are fully allocated to the other strategic goals. The amount of Goal 4 is estimated to be
$83 million in FY 2004. “Costs Not Assigned to Strategic Goals,” such as Congressionally mandated
grant programs, costs of the Office of the Inspector General and costs associated with SBA’s management
of USDA’s Rural Business Investment Program are included the Net Cost Statement

4. Eliminations

The purpose of eliminations is to eliminate the offsetting presentation of assets, liabilities, revenue and
costs that is created by the activities within a reporting entity such as the SBA. The SBA receives a
portion of its funding for operating expenses in the Disaster and Business Program funds.
   (Dollars in Thousands)

                                                                                   Restated
                                          FY 2004     Eliminations Consolidated    FY 2003

Strategic Goal 1: Improve Economic Environment for Small Businesses

   Intragovernmental
       Gross Costs                         $11,633                      $11,633
       Less: Earned Revenue
       Net Costs                           $11,633                      $11,633

   Public
      Gross Costs                          $38,991                      $38,991
      Less: Earned Revenue
      Net Costs                            $38,991                      $38,991

Net Cost Strategic Goal 1                  $50,624                      $50,624

Strategic Goal 2 Increase Small Business Success by Bridging Competitive
Opportunity Gaps Facing Entrepreneurs

   Intragovernmental
       Gross Costs                        $422,946    $(130,364)       $292,582
       Less: Earned Revenue                267,110     (130,364)        136,746
       Net Costs                          $155,836     $               $155,836

   Public
      Gross Costs                        $1,483,911                   $1,483,911
      Less: Earned Revenue                 282,748                      282,748
      Net Costs                          $1,201,163                   $1,201,163

Net Cost Strategic Goal 2                $1,356,999                   $1,356,999

Strategic Goal 3: Restore Homes and Businesses Affected by Disaster

   Intragovernmental
       Gross Costs                        $523,725    $(124,425)       $399,300
       Less: Earned Revenue                290,521     (124,425)        166,096
       Net Costs                          $233,204    $                $233,204

   Public
      Gross Costs                         $268,676                     $268,676
      Less: Earned Revenue                 204,658                      204,658
      Net Cost                             $64,018                      $64,018
Net Cost Strategic Goal 3                $297,222                $297,222

Costs Not Assigned to Strategic Goals

   Intragovernmental
       Gross Cost                          $9,810                  $9,810
       Less: Earned Revenue
       Net Costs                           $9,810                  $9,810

   Public
      Gross Costs                         $32,882                 $32,882
      Less: Earned Revenue
      Net Costs                           $32,882                 $32,882

   Net Cost Not Assigned                  $42,692                 $42,692

   Net Cost of Operations               $1,747,537              $1,747,537    $3,949,258


                                                                FY 2004
Functional Classification
   (Dollars in Thousands)
                                                                 Earned
                                               Gross Cost       Revenue      Net Cost

Commerce and Housing Credit
       Strategic Goal 1                            $50,624      $               $50,624
       Strategic Goal 2                          1,776,493       419,494      1,356,999
       Costs Not Assigned                           42,692                       42,692
Total Commerce and Housing Credit               $1,869,809      $419,494     $1,450,315

Community and Regional Development
       Strategic Goal 3                              $667,976   $370,754      $297,222
Total Community and Regional Development             $667,976   $370,754      $297,222

   Total                                        $2,537,785      $790,248     $1,747,537
                                              Restated FY 2003

                                                    Earned
Functional Classification            Gross Cost     Revenue       Net Cost

Commerce and Housing Credit          $4,181,322    $924,023      $3,257,299
Community and Regional Development    1,214,223      522,264        691,959
  Total                              $5,395,545   $1,446,287     $3,949,258


                                                                 Restated
Intragovernmental Revenue                           FY 2004        2003

Functional Classification

Commerce and Housing Credit                         $136,746       $53,335
Community and Regional Development                   166,096       283,994
  Total                                             $302,842      $337,329
Note 16. Statement of Changes in Net Position
The SBA's net position consisted of the following as of the end of FY 2004 and 2003:

1. Unexpended Appropriations

Unexpended appropriations represent unobligated amounts and amounts for which orders
for goods, services or benefits have been placed but not yet filled. Multi-year
appropriations remain available to SBA for obligation in future periods. Unobligated
balances associated with appropriations expiring at the end of the fiscal year remain
available for obligation adjustments, but not new obligations, until that account is closed
five years after the appropriations expire.

The SBA restated the FY 2003 Unexpended Appropriations beginning balance by $273.5
million to cover prior period adjustments to the Surety Bond Guaranty Fund (SBG).

The prior period adjustment is separately stated for FY 2003 because FY 2002 has not
been restated.

2. Cumulative Results of Operations

Cumulative results of operations is the accumulated difference between expenses and
financing sources since the inception of SBA.

The SBA restated the FY 2003 Cumulative Results of Operations beginning balance by
$425.1 million to cover prior period adjustments. These prior period adjustments were
made to reflect the changes to the Cumulative Results of Operations for the SBG Fund
and the Modification Adjustment Transfer.

The prior period adjustment is separately stated for FY 2003 because FY 2002 has not
been restated.

3. Imputed Financing

The Statement of Changes in Net Position recognized an imputed financing source of
$17.9 million for the year ended September 30, 2004 and $19.1 million for the year ended
September 30, 2003. Corresponding imputed post-employment benefit expenses are
recognized on the Statement of Net Cost as Intragovernmental Gross Costs and are
allocated to all programs.

4. Current Year Liquidating Fund Equity Activity

The agency recognizes a liability to Treasury for the amount of net assets in the
liquidating funds. The amount reflected as a financing source on the Statement of
Changes in Net Position is the change in this liability for the current reporting period.
Note 17. Statement of Budgetary Resources
Budget Authority

SBA has access to permanent indefinite appropriations for liquidating fund obligations
and upward reestimates of credit subsidy cost in its Business and Disaster financing
accounts. SBA used all of its borrowing authority in FY 2004 and FY 2003.

Under the SBA’s appropriation act a portion of the administrative expenses in its Salary
and Expense (S&E) and Office of Inspector General (OIG) funds are funded by amounts
advanced from its Business and Disaster program funds. The use of these advances in the
S&E and OIG funds creates a parallel set of budgetary entries in the SBA’s general
ledger for the Business and Disaster funds program funds and the S&E and OIG funds.
Under current Federal accounting standards these parallel entries are not eliminated in the
Combined Statement of Budgetary Resources (SBR), with the end result of duplicating
the obligations in the SBR. The amount of this duplication was $240.9 million and
$252.0 million for FY 2004 and FY 2003 respectively.

Obligations Incurred

During FY 2004, SBA incurred $7,649 million of direct and reimbursable obligations of
which $192 million was apportioned by fiscal quarters for category A apportionment and
$7,457 million was apportioned by fiscal year for category B apportionment. Category A
apportionments are those for resources that can be obligated without restriction on the
purpose of the obligation, other than to be in compliance with legislation underlying
programs for which the resources were made available. Category B apportionments are
restricted by purpose for which obligations can be incurred.

Reconciliation of the SBR to the Presidents Budget (FY 2003)

Because the Budget of the United States Government (the President’s Budget) with actual
amounts for FY 2004 has not yet been published, SBA compared FY 2003 Statement of
Budgetary Resources to the actual amounts reported in the President’s Budget for FY
2003. This comparison indicated certain differences for which SBA had not accumulated
all of the information it needed prior to the submission of the President’s Budget for FY
2003. The differences reflect several accounting adjustments to correct the FY 2003
Statement of Budgetary Resources but were not incorporated into the President’s Budget
for FY 2003 as follows:

           •   $55 million asset sales activity due to a change in budgetary accounting
               for various transactions types.
           •   $(48) million adjustment for recording other Federal receivables.
           •   $17 million upward adjustment due to a change in the accounting
               treatment used in recording of prior year undelivered orders.
           •   $22 million additional interest due Treasury on SBA borrowings.
          •   $21 million budgetary accounting change in recording the disallowed
              purchased interest liability.
          •   $29 million adjustment for Federal Financing Bank transactions.
          •   $20 million adjustment for recording the suspense allocation.

SBA incurred additional differences due to the methodology used in gathering financial
data from different sources. SBA prepared the Statement of Budgetary Resources using
data from the general ledger, while some of the President’s Budget data was obtained
from internal cost reports. Furthermore, SBA reported expired unobligated balances in
the Statement of Budgetary Resources which were not included in the President’s
Budget.
Note 18. Statement of Financing

The Statement of Financing provides information on the total resources used by an
agency, both those received through budgetary resources and those received through
other means during the reporting period. The statement reconciles these resources with
the net cost of operations by removing resources that do not fund net cost of operations
and including components of net cost of operations that did not generate or use resources
during the year.

The Statement of Financing is presented as a consolidated statement for the Agency and
its major programs. Net interagency eliminations are presented for proprietary amounts.
The budgetary amounts are reported on a combined basis as presented in the SBR.
Accordingly, net interagency eliminations for budget amounts are not presented.
The relationship between the amounts reported as liabilities not covered by budgetary
resources on the balance sheet and amounts reported as components requiring or
generating resources in future periods on the statement of financing were analyzed. The
differences are primarily due to credit program collections offset by resources that
financed acquisitions of assets or liquidation of liabilities and reestimates of credit
subsidy expense.
Note 19. Disclosure Related to Restatement of FY 2003
         Financial Statements
Restatement No 1: Subsidy Reestimates

SBA restated its FY 2003 Financial Statements to reflect reestimates as of September
30 2003 using a new subsidy model methodology. This new methodology known as
the “balances approach” (See Footnote 6R), provides an improved estimate of the cost
of SBA’s credit programs.

Restatement No 2: Deferred Interest

SBA determined it was recording its noncurrent interest incorrectly (See Footnote 1
S). The FY 2003 financial statements have been adjusted to reflect the change.

Restatement No 3: Change in Presentation – Offsetting Collections / Receipts

SBA changed the presentation of "Budgetary Offsetting Collections and Receipts that
Do Not Affect Net Cost of Operations” on its Statement of Financing to more closely
agree with Treasury’s Standard General Ledger crosswalk. For FY 2003, receipts in
Treasury’s special fund for downward subsidy reestimates were recorded on line 15
“Resources that Finance the Acquisition of Assets or Liquidation of Liabilities.” For
FY 2004, they are recorded on line 14b “Budgetary Offsetting Collections and
Receipts that Do Not Affect Net Cost of Operations, Offsetting Receipts.”

Restatement No 4: Modification Adjustment Transfer

During FY 2004 it was determined that the Modification Adjustment Transfer (MAT)
related to SBA’s sale of Business and Disaster loans in FY 2003 was unneeded
because the original Treasury interest discount rates, not current market rates, were
used to determine the cost of SBA’s loan sale program.

Restatement No 5: Cumulative Results of Operation

SBA determined its cumulative results of operations and unexpended appropriation
balances were incorrect in the Surety Bond Guaranty Program due to a longstanding
incorrect closing entry. These balances were therefore previously misreported,
although total equity was not misstated. SBA recorded a prior period adjustment and
restated FY 2003 and correctly reported FY 2004 results in this report.

Restatement No 6: Net Assets of Liquidating Funds Due Treasury

SBA determined its net assets of its liquidating funds due Treasury should be
disclosed separately due to the materiality of this item. Previously it was included
with Other Intragovernmental Liabilities. The FY 2003 Balance Sheet has been
restated to show this new line on the statement.
                            U. S. Small Business Administration
                                Consolidated Balance Sheet
                                             Note 19

   (Dollars in Thousands)                                                       Restated
                                                         FY 2003     Adjustment FY 2003
Assets
Assets – Public and Other
   Credit Program Receivables and Related
       Foreclosed Property, Net     Restatement #1     $             $(760,719)    $
   Credit Program Receivables and Related
       Foreclosed Property, Net     Restatement #2      4,300,333        (7,019)    3,532,595

Liabilities
Intragovernmental Liabilities
    Accounts Payable                  Restatement #1        13,737            2         13,739
    Net Assets of Liquidating Funds
       Due to Treasury                Restatement #6                    407,109        407,109
    Other                             Restatement #1                    433,764
    Other                             Restatement #4                  (214,752)
    Other                             Restatement #6       840,396    (407,109)        652,299

Other Liabilities – Public
   Liabilities for Loan Guarantees    Restatement #1                   (32,611)
   Liabilities for Loan Guarantees    Restatement #2    2,548,963        25,178     2,541,530
   Other                              Restatement #2      140,288      (32,197)       108,091

Net Position
Unexpended Appropriations             Restatement #5       847,474     (273,500)       573,974
Cumulative Results of Operations      Restatement #1                 (1,161,874)
Cumulative Results of Operations      Restatement #4                     214,752
Cumulative Results of Operations      Restatement #5   (4,017,722)       273,500   (4,691,344)
                                          U. S. Small Business Administration
                                   Consolidated Statement of Changes in Net Position
                                                                 Note 19

   (Dollars in Thousands)
                                                         FY 2003                Adjustment           Restated FY 2003
                                              Cumulative                Cumulative                Cumulative
                                              Results of     Unexpended Results of    Unexpended  Results of  Unexpended
                                              Operations Appropriations Operations Appropriations Operations Appropriations
Beginning Net Position
  As Adjusted                Restatement #4 $                $             $151,575    $           $               $
Beginning Net Position
  As Adjusted                Restatement #5 (2,697,964)          954,633    273,500    (273,500)    (2,272,889)        681,133

Other Financing Sources
Transfers – In/Out Without
  Reimbursement              Restatement #1     (175,608)                  (321,120)                   (496,728)

Net Cost of Operations       Restatement #1                                840,754
Net Cost of Operations       Restatement #4     3,171,681                  (63,177)                    3,949,258
                            U. S. Small Business Administration
                            Consolidated Statement of Net Cost
                                          Note 19

   (Dollars in Thousands)                                                       Restated
                                                        FY 2003   Adjustment   FY 2003
Net Cost of Operations            Restatement #1    $              $840,754    $
Net Cost of Operations            Restatement #4     3,171,681      (63,177)    3,949,258
                              U. S. Small Business Administration
                              Consolidated Statement of Financing
                                               Note 19

   (Dollars in Thousands)
                                                                                          Restated
                                                                FY 2003      Adjustment   FY 2003
Resources Used to Finance Activities

Other Resources
   Transfers In (Out)                       Restatement#1       $(175,608)   $(321,120)   $(496,728)

Resources Used to Finance Items not Part of the Net Cost of Operations

   Offsetting Receipts                       Restatement#3                     299,819      299,819
   Resources that Finance the Acquisition of
      Assets or Liquidation of Liabilities   Restatement#3     (2,392,133)    (299,819)   (2,691,952)
   Adjustments to Net Obligated Resources That
      Do Not Affect Net Cost of Operations Restatement#1            1,320            3         1,323

Components of the Net Cost of Operations that will not Require or
  Generate Resources in the Current Period

Components Requiring or Generating Resources in Future Periods
  Upward/Downward Reestimates of Credit
     Subsidy Expense                     Restatement#1                       1,161,873
  Upward/Downward Reestimates of Credit
     Subsidy Expense                     Restatement#4       1,319,587         (63,177)    2,418,283
